App. 1
[PUBLISH]
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
-----------------------------------------------------------------------

No. 19-13883
-----------------------------------------------------------------------

D.C. Docket No. 3:16-cv-00170-RV-HTC
PATRICIA LACOURSE,
Individually and as personal representative
of the Estate of Lt. Colonel Matthew LaCourse,
Plaintiff - Appellant,
versus
PAE WORLDWIDE INCORPORATED, et al.,
Defendants,
DEFENSE SUPPORT SERVICES LLC,
Witness 7,
Witness 8,
Witness 9,
JOHN DOES,
1 through 10 inclusive,
Defendants - Appellees.
-----------------------------------------------------------------------

Appeal from the United States District Court
for the Northern District of Florida
-----------------------------------------------------------------------

(November 17, 2020)

App. 2
Before WILSON, NEWSOM, and ANDERSON, Circuit
Judges.
NEWSOM, Circuit Judge:
This appeal requires us to decide whether and to
what extent the Death on the High Seas Act, 46 U.S.C.
§§ 30301-08, applies to Patricia LaCourse’s wrongfuldeath action, in which she alleges that PAE Worldwide
Incorporated failed to properly service and maintain
the F-16 that her husband was ﬂying when it crashed
into the Gulf of Mexico. We must also determine
whether PAE, which was operating under a services
contract with the United States Air Force, is shielded
from liability by the so-called “government contractor”
defense.
For the reasons that follow, we hold that DOHSA
governs LaCourse’s action, that it provides LaCourse’s
exclusive remedy and preempts her other claims, and
that PAE is entitled to the protection of the government-contractor defense.
I
A
The tragic story underlying this appeal began
when an Air Force F-16 ﬁghter jet departed Tyndall Air
Force Base, east of Panama City, Florida, for a continuation-training sortie. The only person on board was
the pilot, Matthew LaCourse, a retired Air Force Lieutenant Colonel employed as a civilian by the Department of Defense. The plan was for Lt. Col. LaCourse to

App. 3
take the jet out over the Gulf of Mexico, perform a series of training maneuvers, and then return to Tyndall
Unfortunately, he never came back. During the ﬂight—
for reasons the parties dispute—the F-16 crashed into
the Gulf more than twelve nautical miles offshore.
Sadly, Lt. Col. LaCourse was killed.
Five years prior to the accident, PAE’s predecessor—Defense Support Services—had been awarded a
contract with the Air Force to provide aircraft service
and maintenance at Tyndall, including, as it turns out,
on the F-16 that Lt. Col. LaCourse was ﬂying when he
crashed. In performing under the contract, PAE was
required to follow detailed guidelines and adhere to
speciﬁc standards, including Air Force Instructions
(AFIs), Technical Orders (TOs), and Job Guides (JGs),
all of which were prepared by or on behalf of the Air
Force.
F-16s are equipped with two hydraulic systems: A
and B. The systems operate independently of one another and are designed to allow the plane to continue
to ﬂy in the event that one of them fails. Beginning two
months before the crash, the jet at issue here experienced a succession of problems that implicated one or
both of its hydraulic systems. In particular, on separate
occasions: (1) hydraulic ﬂuid was discovered in the outboard ﬂight-control accumulator gauge; (2) System B’s
hydraulically actuated landing gear twice failed to retract during ﬂight; (3) a hydraulic system pressure-line
clamp on System A broke; (4) System B’s reservoir accumulator was found to be depleted; (5) a pre-ﬂight
control check revealed a hydraulic leak; (6) System A’s

App. 4
cockpit indicator showed no pressure and System B’s
ﬂight-control accumulator pre-charge was low; and
(7) both systems failed a “conﬁdence run.”1 The F-16
was serviced and parts were repaired or replaced as
these problems were identiﬁed.
On the day of the crash, the F-16 experienced two
issues shortly before takeoff. First, the emergencypower unit took longer than expected to activate during the pre-ﬂight check. Second, and more importantly
for our purposes, the jet initially failed the “pitch-override check”—in which the pilot applies full pressure to
the stick and presses a switch to make the stabilizers
at the tail move a few inches or degrees in a nose-down
direction. Despite these two “hiccups,” as one witness
called them, the jet ultimately passed all of its preﬂight checks, which indicated no problem with the hydraulic systems. The PAE mechanics who conducted
the pre-ﬂight checks were satisﬁed that the plane was
safe to operate, and they released it for ﬂight.
During the sortie, the F-16 performed a number of
aerial maneuvers leading up to a “pitch-back”—an
over-the-shoulder tactical maneuver in which the pilot
uses the pitch axis to rejoin another aircraft. By all accounts, everything leading up to the pitch-back appeared normal—i.e., no gauge, light, warning, or caution
indicated any problem, and there were no reports of
any vibrations, shakes, etc. The issue that led to the
1

The district court assumed that each of these problems was
related to the hydraulic systems for purposes of deciding LaCourse’s claims on summary judgment but noted that this was
“far from certain.”

App. 5
crash occurred at the end of the pitch-back maneuver—Lt. Col. LaCourse appeared to level off and there
followed, as one witness described it, “a period of no
data, no inputs, no control or . . . no maneuvers,” at
which point the jet entered a “pitch-down” from about
12,000 feet. There is no evidence that Lt. Col. LaCourse
made any effort to eject or radio for help during his ﬁnal descent.2
B
Lt. Col. LaCourse’s widow and personal representative, Patricia LaCourse, ﬁled this wrongful-death
action and jury demand in Florida state court alleging
state-law claims for negligence, breach of warranty,
and breach of contract. PAE removed the case to federal court based on federal-ofﬁcer jurisdiction, diversity jurisdiction, and jurisdiction under DOHSA—
which, in relevant part, confers admiralty jurisdiction
“[w]hen the death of an individual is caused by wrongful act, neglect, or default occurring on the high
seas.” 46 U.S.C. § 30302. Resisting PAE’s removal, LaCourse disputed that federal jurisdiction existed on
any basis.

2

Although it has no real bearing on the issues before us, it’s
worth noting—by way of background—that the parties vigorously
dispute the crash’s cause. LaCourse and her experts blame the F16’s dual-hydraulic system, as well as PAE’s failure to discover,
diagnose, and address the problems. PAE and its experts, by contrast, posit that Lt. Col. LaCourse suffered a G-induced loss of
consciousness following the pitch-back.

App. 6
Once in federal court, PAE moved for partial
summary judgment, arguing that DOHSA governed
LaCourse’s suit and, accordingly, that any potential recovery should (per the statute) be limited to pecuniary
damages. The district court granted PAE’s motion and
held that DOHSA applies and “provides the exclusive
remedy for death on the high seas, preempts all other
forms of wrongful death claims, and only permits recovery for pecuniary damages.”
PAE then filed a motion to strike—or, in the alternative, for partial summary judgment—asking
the district court to strike LaCourse’s state-law
breach-of-warranty and breach-of-contract claims, as
well as her jury demand. The district court again
granted PAE’s motion, concluding that because DOHSA
preempts all other wrongful-death causes of action,
LaCourse’s warranty and contract claims had to be
stricken. The district court further held that because
all that remained was the DOHSA claim, LaCourse
was not entitled to a jury trial.
PAE subsequently moved for ﬁnal summary judgment, contending that it was protected by the “government contractor” defense, which extends the United
States’ sovereign immunity to a federal-government
contractor, thereby shielding it from civil liability,
provided that, among other things, the contractor
complies with reasonably precise government speciﬁcations. The district court once again agreed with
PAE and granted it summary judgment on government-contractor grounds.

App. 7
This is LaCourse’s appeal.3
II
Before us, LaCourse argues that the district court
erred in several ways. First, she contends that the
court wrongly held that DOHSA governs this case—
both (1) because by its plain terms DOHSA applies
only when a death is caused by “wrongful act, neglect,
or default occurring on the high seas,” whereas the alleged negligence here occurred on land, and (2) because, in any event, her husband’s plane crash lacked
a “maritime nexus.” Second, LaCourse argues that the
district court erred in striking her breach-of-warranty
and breach-of-contract claims because they don’t seek
3

As PAE points out, LaCourse’s notice of appeal identiﬁed
only two of the district court’s three orders—the order striking
her non-DOHSA claims and her jury demand (Doc. 90) and the
order granting PAE ﬁnal summary judgment based on the government-contractor defense (Doc. 134). The notice did not speciﬁcally state that LaCourse was also appealing the district court’s
initial order concluding that DOHSA applied and supplied her exclusive remedy (Doc. 74). LaCourse acknowledges the oversight
in her reply brief, but as she explains, it is “well settled that an
appeal is not lost if a mistake is made in designating the judgment
appealed from where it is clear that the overriding intent was effectively to appeal.” KII Outdoor, LLC v. City of Trussville, 465
F.3d 1256, 1260 (11th Cir. 2006) (citation omitted). LaCourse’s
intent to appeal all three orders is apparent from the brieﬁng, and
PAE addressed all three orders (and constituent issues) in its response. Moreover, and in any event, our review of the latter two
orders necessarily requires us to review the district court’s determination of DOHSA’s applicability. So in short, LaCourse’s oversight hasn’t prejudiced either party and, based on our case law,
it’s appropriate to let it slide under the circumstances.

App. 8
a remedy broader than DOHSA and therefore aren’t
preempted. Finally, she asserts that the district court
improperly applied the government-contractor defense
because PAE failed to show that it complied with the
Air Force’s reasonably precise speciﬁcations for maintaining the F-16.4
We will examine each contention in turn.5
A
The ﬁrst question we must address is whether
DOHSA applies to LaCourse’s suit. The district court
held that it does; LaCourse insists that it doesn’t.
In relevant part, DOHSA’s operative provision
states that
[w]hen the death of an individual is caused by
wrongful act, neglect, or default occurring on
the high seas . . . the personal representative
of the decedent may bring a civil action in admiralty against the person or vessel responsible.
4

LaCourse also contends that the district court erred in
striking her jury demand. But because—for reasons we’ll explain—we hold that the district court’s grant of summary judgment in PAE’s favor is due to be afﬁrmed, we needn’t reach the
jury-demand issue.
5
“We review the district court’s grants of partial summary
judgment and summary judgment de novo, reviewing all facts and
reasonable inferences in the light most favorable to the nonmoving party, and applying the same standard as the district court.”
Allison v. McGhan Med. Corp., 184 F.3d 1300, 1306 (11th Cir.
1999).

App. 9
46 U.S.C. § 30302. DOHSA’s applicability matters,
among other reasons, because it limits a plaintiff ’s recovery to “compensation for the pecuniary loss sustained by the individuals for whose beneﬁt the action
is brought” and thereby forecloses recovery for emotional injury and punitive damages. Id. § 30303.
1
LaCourse ﬁrst argues that the district court erred
in holding that DOHSA applies because the “wrongful
act, neglect, or default” asserted here—PAE’s negligent
maintenance of the F-16—did not “occur[ ] on the high
seas,” as the Act’s plain language requires. Rather, she
says, the alleged negligence occurred on land—when
the jet was improperly serviced at Tyndall Air Force
Base. Accordingly, LaCourse contends, DOHSA doesn’t
apply to her suit.
If we were writing on a clean slate, we would almost certainly agree. LaCourse is exactly right that,
according to its language, DOHSA applies only when
the “death of an individual is caused by wrongful act,
neglect, or default occurring on the high seas.” And she
is also right that the alleged “wrongful act, neglect, or
default” here occurred not “on the high seas,” but on
terra ﬁrma. Unfortunately for LaCourse, though, we
are bound by controlling precedent to reject her plaintext argument. In Offshore Logistics, Inc. v. Tallentire, for instance, the Supreme Court observed that
“admiralty jurisdiction is expressly provided under
DOHSA [where] the accidental deaths occurred beyond

App. 10
a marine league from shore.” 477 U.S. 207, 218 (1986)
(emphasis added). So too, in In re Dearborn Marine
Service, Inc., our predecessor court, whose decisions
bind us,6 recognized that “DOHSA has been construed
to confer admiralty jurisdiction over claims arising out
of airplane crashes on the high seas though the negligence alleged to have caused the crash occurred on
land.” 499 F.2d 263, 272 n. 17 (5th Cir. 1974) (emphasis
added); accord, e.g., Smith v. Pan Air Corp., 684 F.2d
1102, 1111 (5th Cir. 1982) (“[T]he simple fact that
[plaintiff ’s] death occurred as a result of an aircraft
crash into the high seas is alone enough to confer jurisdiction under the DOHSA. . . . [A]dmiralty jurisdiction has repeatedly been extended to cases in which
death or injury occurred on navigable waters even
though the wrongful act occurred on land. The place
where the negligence or wrongful act occurs is not decisive.”) (footnote omitted). It’s not for the three of us
to second-guess the correctness of Offshore Logistics or
Dearborn Marine. Because we are bound by those decisions, we are constrained to agree with the district
court that DOHSA applies despite the fact that PAE’s
alleged negligence occurred on land at Tyndall Air
Force Base.
2
LaCourse separately argues that DOHSA doesn’t
govern here because the plane crash that killed her
6

See Bonner v. City of Prichard, 661 F.2d 1206, 1209 (11th
Cir. 1981) (en banc).

App. 11
husband lacked a “maritime nexus,” which she insists
is required by the Supreme Court’s landmark admiralty decision in Executive Jet Aviation, Inc. v. City of
Cleveland, 409 U.S. 249 (1972).
In that case, a plane ﬂying from Ohio to Maine
crashed into Lake Erie after striking a ﬂock of seagulls
shortly after takeoff. Id. at 250. Although the crew
wasn’t injured, the plane was a total loss, so its owners
brought an action in admiralty, alleging negligence by
several airport employees. Id. at 250-51. The Supreme
Court held that maritime locality alone—there, Lake
Erie’s navigable waters—is not a sufﬁcient predicate
for admiralty jurisdiction in aviation-tort cases, and
that “in the absence of legislation to the contrary,”
claims arising from airplane crashes are not cognizable in admiralty unless the alleged wrong bears “a
signiﬁcant relationship to traditional maritime activity”—i.e., has a maritime nexus. Id. at 268. Because the
ﬂight in Executive Jet “would have been almost entirely over land . . . within the continental United
States” and was “only fortuitously and incidentally
connected to navigable waters,” the Court determined
that it bore “no relationship to traditional maritime activity”—and, accordingly, that admiralty jurisdiction
was lacking Id. at 272-73. LaCourse argues that, like
the ﬂight in Executive Jet, her husband’s ﬂight—which
was intended to begin and end at Tyndall Air Force
Base—was also only “fortuitously over water” and thus
bore no signiﬁcant relationship to “traditional maritime activity.”

App. 12
The problem with LaCourse’s argument is that
Executive Jet didn’t involve DOHSA—there were no injuries, let alone any fatalities to support a wrongfuldeath claim. Id. at 250. And signiﬁcantly, the Supreme
Court was careful there to include a caveat when announcing its holding—namely, that a maritime nexus
is required only “in the absence of legislation to the
contrary.” Id. at 268. And indeed, the Court in a footnote speciﬁcally identiﬁed DOHSA as an example of a
statute that would constitute “legislation to the contrary.” Id. at 274 n. 26.
If Executive Jet stood alone, LaCourse’s maritimenexus argument might still have a chance. In ﬂagging
DOHSA as an example of “legislation to the contrary,”
the Court suggested that the Act might apply only to
ﬂights that require traversing the high seas: “Some
such ﬂights, e.g., New York City to Miami, Florida, no
doubt involve passage over ‘the high seas beyond a marine league from the shore of any State.’ To the extent
that the terms of the Death on the High Seas Act become applicable to such flights, that Act, of course, is
‘legislation to the contrary.’ ” Id. (emphasis added). Because Lt. Col. LaCourse’s sortie didn’t require him to
ﬂy over the ocean, the argument would go, it wasn’t one
of the “such ﬂights” that the Executive Jet Court
thought DOHSA would cover.
But Executive Jet wasn’t the Supreme Court’s last
word on DOHSA’s application to aviation-based torts.
Rather, as already explained, the Court held in Offshore Logistics that DOHSA applies to all cases—
including aviation-related cases—in which a death

App. 13
occurs on the high-seas. See 477 U.S. at 218. In the
course of so holding, the Court explained the applicability (or non-applicability, as the case may be)
of the maritime-nexus requirement in these terms:
“[A]dmiralty jurisdiction is expressly provided under
DOHSA [where] the accidental deaths occurred beyond a marine league from shore. Even without this
statutory provision, admiralty jurisdiction is appropriately invoked here under traditional principles because the accident occurred on the high seas and in
furtherance of an activity bearing a signiﬁcant relationship to a traditional maritime activity.” Id. at
218-19 (emphasis added). Translation: Where a death
occurs on the high seas, DOHSA applies, full stop; separately, in a non-DOHSA case, maritime jurisdiction
might still exist, provided that there is a maritime
nexus. To the extent that Executive Jet’s New-York-toMiami footnote left any doubt, Offshore Logistics clariﬁed that the occurrence of a death on the high seas is
a sufﬁcient condition to DOHSA’s application—without any further maritime-nexus gloss.7

7

In support of her maritime-nexus argument, LaCourse
points to Miller v. United States, 725 F.2d 1311 (11th Cir. 1984),
in which we assumed (without actually considering or speciﬁcally
deciding) that a maritime nexus may be required under DOHSA.
See id. at 1315 (concluding that DOHSA provided jurisdiction
over an aviation crash after determining that there was a maritime nexus on the facts of that case). We think it a full answer to
Miller to recognize that it was decided before the Supreme Court
clariﬁed in Offshore Logistics that DOHSA imposes only a locality
requirement, and not a separate maritime-nexus requirement.
Other courts have distinguished Miller on precisely this basis,
and we agree with their assessment. See, e.g., Ventura Packers,

App. 14
In sum, then, we agree with the district court that
DOHSA doesn’t require a maritime nexus—and therefore, that because (on the Supreme Court’s interpretation) the Act applies whenever a death occurs on the
high seas, it governs LaCourse’s wrongful-death suit.
B
Having concluded that DOHSA applies to LaCourse’s action, we must now determine whether it
provides her exclusive remedy, such that it preempts
all other claims arising out of her husband’s crash.
The district court concluded that LaCourse’s
breach-of-warranty and breach-of-contract claims—
both of which she initially brought under Florida’s
Wrongful Death Act, Fla. Stat. § 768.16—had to be
stricken on the ground that where DOHSA applies it
Inc. v. F/V Jeanine Kathleen, 305 F.3d 913, 918 (9th Cir. 2002)
(listing Miller as an example of how “several courts initially presumed” that DOHSA required a maritime nexus, but noting that
those cases came before Offshore Logistics and that now, “the
prevailing view holds that DOHSA established independent requirements for the exercise of admiralty jurisdiction”); see also
Palischak v. Allied Signal Aerospace Co., 893 F. Supp. 341, 345 &
n.5 (D.N.J. 1995) (holding that “the requirement of a traditional
maritime nexus is not a prerequisite to the exercise of admiralty
jurisdiction pursuant to DOHSA,” and (citing Miller) noting that
“[w]e are unable to locate a single decision after [Offshore Logistics] in which a lower court required a maritime nexus before
applying DOHSA”); Bernard v. World Learning Inc., 2010 WL
11505188, at *8 n.14 (S.D. Fla. June 4, 2010) (acknowledging the
circuit precedent in Miller but explaining that it was decided prior
to Offshore Logistics and holding that a maritime nexus is no
longer required in DOHSA cases).

App. 15
“preempts all other forms of wrongful death claims.”
LaCourse contends that the district court erred because, she says, her state-law claims don’t seek a
remedy broader than DOHSA and therefore aren’t
preempted.
Again, while it seems to us that LaCourse might
have the plain language on her side—in a section titled
“Nonapplication,” DOHSA expressly states that it
“does not affect the law of a State regulating the right
to recover for death,” 46 U.S.C. § 30308—the controlling precedent is squarely against her. In particular,
the Supreme Court held in Offshore Logistics that
“in light of the language of the Act as a whole, the
legislative history of [§ 30308’s predecessor], the congressional purposes underlying the Act, and the importance of uniformity of admiralty law,” the provision
that is now codiﬁed at § 30308 “was intended only to
serve as a jurisdictional saving clause, ensuring that
state courts enjoyed the right to entertain causes of
action and provide wrongful death remedies both for
accidents arising on territorial waters and, under
DOHSA, for accidents occurring more than one marine
league from shore.” 477 U.S. at 221. And, the Court continued, once it is determined that § 30308 (or there, its
predecessor) “acts as a jurisdictional saving clause, and
not as a guarantee of the applicability of state substantive law to wrongful deaths on the high seas, the conclusion that the state statutes are pre-empted by
DOHSA where it applies is inevitable.” Id. at 232.
Put simply, under Offshore Logistics, § 30308
preserves only state-court jurisdiction—not state

App. 16
substantive wrongful-death law—and where DOHSA
applies, it preempts all other wrongful-death claims
under state or general maritime law. Accordingly, we
hold that the district court was correct to conclude that
DOHSA forecloses LaCourse’s breach-of-warranty and
breach-of-contract claims.
C
Having concluded that DOHSA governs LaCourse’s suit and supplies her exclusive remedy, we
must now determine whether LaCourse’s claim is
barred by the so-called “government contractor” defense. Provided that certain conditions are met, that
defense—a creation of federal common law—extends
the United States’ sovereign immunity to a government contractor, thereby protecting it against civil liability. In essence, it allows the contractor to escape
liability on the ground that it was “just following orders.” LaCourse asserts that the district court erred in
applying the government-contractor defense because
PAE failed to establish that it conformed to the government’s reasonably speciﬁc maintenance procedures.8
8

LaCourse also argues that PAE shouldn’t be entitled to immunity in this case because its maintenance contract with the Air
Force speciﬁcally stated that PAE “shall be . . . responsible for all
injuries to persons or damage to property that occurs as a result
of its fault or negligence.” But the allocation of liability between
PAE and the government has nothing to do with PAE’s immunity
from liability to a third party. Given the point of the governmentcontractor defense—to allow the government to hire contractors
to perform uniquely governmental duties without subjecting
them to the risk of liability to third parties—it would make little

App. 17
The Supreme Court fashioned the governmentcontractor defense in Boyle v. United Technologies Corporation, 487 U.S. 500 (1988). There, the Court held, in
a suit alleging design defects in military equipment,
that a private contractor could partake of the United
States’ sovereign immunity so long as the following
three conditions were satisﬁed: “(1) the United States
approved reasonably precise specifications; (2) the
equipment conformed to those specifications; and
(3) the supplier warned the United States about the
dangers in the use of the equipment that were known
to the supplier but not to the United States.” Id. at 512.
Although Boyle dealt speciﬁcally with government
procurement contracts, we extended its analysis to
cover government service contracts in Hudgens v. Bell
Helicopters/Textron, 328 F.3d 1329 (11th Cir. 2003). To
account for the contextual switch from a design-defect
case to a negligent-maintenance case, we rejiggered
the defense’s three elements as follows: “(1) the United
States approved reasonably precise maintenance procedures; (2) [the contractor’s] performance of maintenance conformed to those procedures; and (3) [the
contractor] warned the United States about the dangers in reliance on the procedures that were known to
[the contractor] but not to the United States.” Id. at
1335.

sense to interpret the contract language as LaCourse suggests.
The far better—and we think obvious—reading is that the quoted
text merely allocates liability between PAE and the Air Force, not
liability between PAE and a third party.

App. 18
Helpfully, the parties have narrowed the focus
here. LaCourse concedes that the Air Force provided
reasonably precise maintenance procedures, so there’s
no question that the ﬁrst Boyle/Hudgens element is
satisﬁed. And the district court held that the third element “does not apply because (as PAE has argued, and
as the plaintiff has not disputed) there is no contention
that PAE had knowledge that it withheld from the government,” and neither party appears to take issue with
that conclusion. So all seem to agree that the application of the government-contractor defense here turns
on the second Boyle/Hudgens element—whether, in
servicing the F-16, PAE conformed to the Air Force’s
reasonably precise maintenance procedures.
In its summary-judgment motion, PAE argued
that its maintenance conformed to the government’s
reasonably precise procedures, and it cited an abundance of supporting evidence, including deposition
testimony from multiple employees, an Accident Investigation Board maintenance member, and the Safety
Investigation Board investigator. See Deposition of
Timothy Davis at 7:20-8:11, 117:17-118:18 (testifying
that all maintenance performed under the contract, including the service of Lt. Col. LaCourse’s F-16, conformed to the Air Force’s rules, regulations, and
technical orders); see also Deposition of Michael Reeves
at 106:4-106:18 (similar); Deposition of Michael Bogaert at 7:8-9:20 (similar); Deposition of AIB Investigator, Captain Michelle Chiaravelle at 26:10-26:17
(similar); Deposition of SIB Investigator, Senior Master
Sergeant Marquell Fallin at 13:10-13:22, 19:8-19:23

App. 19
(similar). In light of PAE’s extensive evidence of compliance, the district court held that LaCourse failed to
present evidence that PAE violated government procedures sufﬁcient to create a genuine dispute of material
fact.
In the “Statement of Facts” section of her opening
brief on appeal, LaCourse identiﬁed three Air Force
maintenance procedures under the subheading “The
Defendant’s Lack of Compliance with the Air Force’s
Speciﬁcations and Instructions.” First, she stated that
under AFI 21-101 ¶ 7.1, when there are system malfunctions of a “chronic nature” the aircraft “should”
(her word) be impounded and prevented from ﬂying
until there are “ ‘investigative efforts’ to uncover the
root cause.” Second, LaCourse said that under AFI 21101 ¶ 7.5.4 an airplane “must” be impounded “following an uncommanded ﬂight control movement,” which
she claims occurred when the stabilizers didn’t move
as directed during the ﬁnal pre-ﬂight check. Finally,
she cited TO 1-1-300, which states that a procedure
called a “functional flight check” is “normally” conducted following maintenance work and before an airplane is released to ﬂy.
LaCourse’s contention that PAE violated reasonably precise maintenance procedures—so as to foreclose
its reliance on the government-contractor defense—
fails on numerous grounds. As an initial matter, she
has almost certainly abandoned her arguments based
on the procedures she cites. We have repeatedly held
that an appellant abandons an argument on appeal
when she fails to “speciﬁcally and clearly identif [y]” it

App. 20
or “plainly and prominently” raise it in her opening
brief. Access Now, Inc. v. Southwest Airlines Co., 385
F.3d 1324, 1330 (11th Cir. 2004); Cole v. U.S. Att’y Gen.,
712 F.3d 517, 530 (11th Cir. 2013). In particular, we will
deem an appellant to have abandoned an argument
where she makes only “passing references” to it in the
background sections of her brief—or, for that matter,
even the brief ’s argument section. Sapuppo v. Allstate
Floridian Ins. Co., 739 F.3d 678, 681-82 (11th Cir.
2014). Under our consistent precedent, LaCourse’s
scattered references to Air Force procedures in the
“Statement of the Facts” section of her opening appellate brief—followed by a single (and vague) invocation
of “AFI 21-101” on a single page in the “Argument” section—were insufﬁcient to present a legal argument
based on PAE’s alleged noncompliance with them.
Moreover, and in any event, LaCourse’s arguments fail on the merits. With respect to AFI 21-101
¶ 7.1 and TO 1-1-300, it is enough to note that they
merely permit, rather than require, impoundment and
functional check ﬂights, respectively, under speciﬁed
circumstances. A government contractor doesn’t violate reasonably precise maintenance procedures by
taking a course of action—repair, replacement, retesting—that those procedures at least implicitly allow.9

9

LaCourse also asserted—albeit again only in the “Statement of Facts” section of her opening brief—that Lt. Col.
LaCourse’s F-16 “should” have been impounded for a “root cause”
investigation. When pressed at oral argument about what procedure required such an investigation, LaCourse’s counsel pointed
to the following language in AFI 21-101 ¶ 7.1: “Impounding

App. 21
Had LaCourse properly presented it, an argument
based on AFI 21-101 ¶ 7.5.4—which, unlike the other
two procedures on which she relies, requires impoundment following an “uncommanded ﬂight control movement”—might have been somewhat stronger, but for
reasons we will explain, even it would fail.
In resisting the application of the governmentcontractor defense, LaCourse cited testimony from
Timothy Davis and Michael Bogaert—PAE employees
tasked with the preﬂight checks on the day of the
crash—both of whom testiﬁed that Bogaert (1) didn’t
see the stabilizers move as far as they should have during the initial pitch-override check and (2) instructed
Lt. Col. LaCourse to repeat the sequence until the stabilizers performed properly. LaCourse contends that
the jet should have been grounded after the ﬁrst sequence. PAE counters that Bogaert’s description of the
check indicates that Lt. Col. LaCourse simply wasn’t
performing the sequence properly, not that there was
any sort of issue with the control.
By way of background, here is the relevant portion
of Bogaert’s testimony:

aircraft and equipment enables investigative efforts to systematically proceed with minimal risk relative to intentional/unintentional actions and subsequent loss of evidence.” Oral Argument at
32:10. But even if LaCourse had developed this assertion into a
legal argument outside of the background section of her brief, the
cited language says nothing about a root-cause investigation, let
alone a mandatory one.

App. 22
Q: During the pitch override check, did you
see the horizontal stabs move at all?
A: After I got on the headset, after when [Mr.
Davis] had ﬁnished checking brakes, I got on
a headset with [Lt. Col. LaCourse] and asked
him if he had done it. He said yes. I told him I
didn’t see it. He said do you want me to do it
again. I said yes, if you don’t mind. At which
point he tried to do it again, and they didn’t
move. And I asked him, are you holding the
stick full forward, and he wasn’t. He was just
pushing, and they’re reaching over and he’s
releasing his pressure on the stick, is my best
guess. But I told him, no, [Lt. Col. LaCourse],
that’s not it, and asked him, are you holding
the stick full forward as you hit that switch.
And he did that, and it worked perfect. He released. I said that’s what I was looking for,
technique.
Even aside from abandonment, there are several
problems with LaCourse’s AFI 21-101 ¶ 7.5.4 argument.
First, whereas that procedure triggers mandatory impoundment only upon the occurrence of an “uncommanded . . . movement,” Bogaert’s testimony describes
(at most) the exact converse—a commanded non-movement. In particular, Bogaert recounted that he saw Lt.
Col. LaCourse attempt to move the stabilizers by pushing the stick (the command) but explained that they
initially “didn’t move” (the non-movement). Accordingly, it’s not at all clear to us that, by its plain terms,
AFI 21-101 ¶ 7.5.4 even applies.

App. 23
Second, LaCourse has pointed to no expert testimony or other evidence connecting attorney argument
(or, more precisely, attorney factual recitation) to an actual AFI 21-101 ¶ 7.5.4 violation. Rather, she offers
only lay testimony describing what happened during
the test. She presents no expert (or even lay) testimony
explaining why what happened constituted an “uncommanded ﬂight control movement” triggering a mandatory impoundment. LaCourse’s evidence, we think,
is insufﬁcient to permit a reasonable jury to ﬁnd that
PAE violated AFI 21-101 ¶ 7.5.4.
Finally, even under the most charitable reading,
Bogaert’s testimony describes not a breach of procedure, but a likely pilot error—Lt. Col. LaCourse, Bogaert
said, simply wasn’t performing the check properly. Bogaert explained that Lt. Col. LaCourse wasn’t “holding the stick full forward” and that once he performed
the check using the proper technique, it “worked perfect[ly].”
For all these reasons, even if LaCourse had
properly presented an argument that PAE violated
AFI 21-101 ¶ 7.5.4, we would reject it.
*

*

*

In sum, LaCourse failed to produce evidence sufﬁcient to create a genuine issue of material fact that
PAE violated government procedures. LaCourse’s real
argument seems to be that PAE’s mechanics should
have dug deeper into the F-16’s hydraulic-related problems, because, had they done so, they would have discovered that the hydraulic systems were compromised.

App. 24
But while what LaCourse and her experts believe PAE
should have done differently surely has some bearing
on the merits of her DOHSA-based negligence claim, it
is irrelevant to the question whether PAE is protected
by the government-contractor defense. All that matters on that score is whether PAE violated reasonably
precise government procedures, and based on the evidence presented from both parties we conclude that it
did not. Accordingly, we afﬁrm the district court’s decision that PAE is entitled to summary judgment on government-contractor grounds.
III
For the foregoing reasons, we hold that DOHSA
applies to and governs LaCourse’s case, that the Act
provides her exclusive remedy, and that PAE is
shielded from liability by the government-contractor
defense. Accordingly, we afﬁrm the district court’s
grant of summary judgment in favor of PAE.
AFFIRMED.

NEWSOM, Circuit Judge, with whom WILSON, Circuit Judge, joins, concurring:
I write separately to explain that, while I agree
that we must follow existing precedent to hold that
DOHSA applies to (and thereby supplies the exclusive
wrongful-death remedy for) any claim arising out of a
death occurring on the high seas—even where, as here,

App. 25
the negligence alleged to have caused the death occurred on land—I do so holding my nose, as DOHSA’s
plain language is squarely to the contrary.
As a refresher, DOHSA’s operative provision
states in relevant part that “[w]hen the death of an individual is caused by a wrongful act, neglect, or default
occurring on the high seas . . . the personal representative of the decedent may bring a civil action in admiralty against the person or vessel responsible.” 46
U.S.C. § 30302. LaCourse contends (1) that DOHSA applies only when the negligence occurred on the high
seas, without respect to where the death occurred, and
(2) that all here agree that the alleged negligence occurred on land, when the jet was improperly serviced
at Tyndall Air Force Base. Accordingly, she insists,
DOHSA doesn’t govern her case.
LaCourse’s logic, it seems to me, is unassailable.
By its plain terms, DOHSA limits its application to instances in which the “wrongful act, neglect, or default
occur[ed] on the high seas,” regardless of where the resulting death occurred. Indeed, there is no reasonable
reading of the Act by which the phrase “occurring on
the high seas” modiﬁes the word “death” rather than
the phrase “wrongful act, neglect, or default.” One
needn’t even resort to the canons to come to that conclusion—the plain, ordinary, and obvious meaning of
the words is sufﬁcient. (Having said that, the canons
would lead to precisely the same determination. See
Nearest-Reasonable-Referent Canon, Black’s Law Dictionary (11th ed. 2019); Antonin Scalia & Bryan A.

App. 26
Garner, Reading Law: The Interpretation of Legal Texts
152 (2012).)
Somehow, though, precedent—mounds of it, some
of it binding on us—has whistled past the text’s unmistakable focus of the location of the alleged negligence
as the decisive factor for determining DOHSA’s applicability. For instance—
•

Miles v. Apex Marine Corp., 498 U.S. 19, 25
(1990) (“DOHSA . . . create[ed] a wrongful
death action for all persons killed on the high
seas.”)

•

Offshore Logistics, Inc. v. Tallentire, 477 U.S.
207, 218 (1986) (“Here, admiralty jurisdiction
is expressly provided under DOHSA because
the accidental deaths occurred beyond a marine league from shore.”)

•

Mobil Oil Corp. v. Higginbotham, 436 U.S. 618,
620 (1978) (noting that DOHSA creates “a
remedy in admiralty for wrongful deaths
more than three miles from shore”)

•

In re Dearborn Marine Serv., Inc., 499 F.2d
263, 272 n. 17 (5th Cir. 1974) (“DOHSA has
been construed to confer admiralty jurisdiction over claims arising out of airplane
crashes on the high seas though the negligence alleged to have caused the crash occurred on land.”)

•

Bergen v. F/V ST. PATRICK, 816 F.2d 1345,
1348 (9th Cir. 1987) (“[DOHSA] has been held
to refer to the site of an accident on the high

App. 27
seas, not to where . . . the wrongful act causing the accident may have originated.”)
•

Smith v. Pan Air Corp., 684 F.2d 1102, 1111
(5th Cir. 1982) (“[T]he simple fact that [plaintiff ’s] death occurred as a result of an aircraft
crash into the high seas is alone enough to
confer jurisdiction under the DOHSA. . . .
[A]dmiralty jurisdiction has repeatedly been
extended to cases in which death or injury occurred on navigable waters even though the
wrongful act occurred on land. The place
where the negligence or wrongful act occurs is
not decisive.”) (footnote omitted)

I could go on and on and on—this is but a small sampling of cases holding that DOHSA applies to any
claim arising out of a death occurring on the high seas,
wholly without regard to where the underlying negligence occurred. But again, that seems obviously wrong
to me.
I’m not the ﬁrst to recognize the textual disconnect. The Fifth Circuit, for instance, once remarked
that “[a]t ﬁrst glance, the plain text of this statutory
provision seems to indicate that DOHSA is implicated
only when the wrongful act precipitating death occurs
on the high seas.” Motts v. M/V Green Wave, 210 F.3d
565, 569 (5th Cir. 2000). But the court went on: “As subsequent courts have interpreted DOHSA, however, the
statute’s application is not limited to negligent acts
that actually occur on the high seas. The Supreme
Court has repeatedly noted that when the death itself
occurs on the high seas, DOHSA applies.” Id. My only

App. 28
disagreement with the Fifth Circuit’s assessment is
the “[a]t ﬁrst glance” part. I’ve read § 30302 over and
over—glanced, peered, gawked, and glared—and I can’t
make it say anything other than that DOHSA applies
when the alleged act of negligence—rather than the resulting death—occurs on the high seas.
So how did we get ourselves into this predicament—reading DOHSA to mean something that it obviously doesn’t say? The answer, apparently, traces
back to century-old admiralty law premised on a “consummation of the injury” theory. See e.g., In re Dearborn Marine, 499 F.2d at 274 (“Historically maritime
jurisdiction has been measured by the locality of the
wrong with locality deﬁned as where the ‘substance
and consummation of the injury’ took place.”) (citing
The Plymouth, 70 U.S. (3 Wall.) 20, 33 (1886)) (footnote
omitted). Put simply, if a claim is premised on a negligence theory, the underlying negligence isn’t complete
until it is “consummated in an actual injury.” Lasky v.
Royal Caribbean Cruises, Ltd., 850 F. Supp. 2d 1309,
1312 (S.D. Fla. 2012). So, the argument goes, a DOHSA
claim for wrongful death based on negligent service—
as we have here—accrues at the time and place where
the allegedly wrongful act culminates in an actual injury (the high seas), not when and where the negligence itself allegedly occurred (at Tyndall Air Force
Base).
That’s ﬁne. It’s just not what the statute says.
DOHSA doesn’t say that the decedent’s personal representative may bring an action “when the death of
an individual occurring on the high seas is caused by

App. 29
wrongful act, neglect, or default”; rather, it says that
the personal representative can sue “[w]hen the death
of an individual is caused by wrongful act, neglect, or
default occurring on the high seas.” 46 U.S.C. § 30302.
End of story.
Bottom line: As in all cases, we should give effect
to DOHSA’s unambiguous language. See, e.g., Estate of
Cowart v. Nicklos Drilling Co., 505 U.S. 469, 476 (1992)
(“The controlling principle in this case is the basic and
unexceptional rule that courts must give effect to the
clear meaning of statutes as written.”). If it were up to
me, I would hold that DOHSA doesn’t apply here because the alleged negligence—the failure to properly
maintain the F-16 that Lt. Col. LaCourse was piloting
when he crashed—occurred on land, not on the high
seas.

App. 30
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF FLORIDA
PENSACOLA DIVISION
PATRICIA LACOURSE,
individually and as Personal
Representative of the Estate
of Lt. Col. Matthew LaCourse,
Plaintiff,

Case No.
3:16cv170-RV/CJK

v.
DEFENSE SUPPORT
SERVICES LLC, et al.,
Defendants.

/

ORDER
(Filed Feb. 23, 2018)
Now pending before the court is a motion for
partial summary judgment filed by defendant PAE
Aviation Technical Services LLC, f/k/a Defense Support Services LLC (doc. 56). The plaintiff, Patricia
LaCourse, has ﬁled a response in opposition (Pl. Resp.),
and the defendant has ﬁled a reply in further support.
I.

Standard of Review

Summary judgment is appropriate if all the pleadings, discovery, afﬁdavits, and disclosure materials on
ﬁle show that there is no genuine disputed issue of material fact, and the movant is entitled to judgment as a
matter of law. Fed. R. Civ. P. 56(a), (c). The plain language of Rule 56(c) mandates the entry of summary

App. 31
judgment, after adequate time for discovery and upon
motion, against any party who fails to make a showing
sufﬁcient to prove the existence of an element essential
to that party’s case, and on which that party will bear
the burden of proof at trial. Celotex Corp. v. Catrett, 477
U.S. 317, 322 (1986).
Summary judgment is inappropriate “[i]f a reasonable factﬁnder evaluating the evidence could draw
more than one inference from the facts, and if that inference introduces a genuine issue of material fact[.].”
Allen v. Board of Public Educ. for Bibb County, 495 F.3d
1306, 1315 (11th Cir. 2007). An issue of fact is “material” if it might affect the outcome of the case under the
governing law. Anderson v. Liberty Lobby Inc., 477 U.S.
242, 248 (1986). It is “genuine” if the record, viewed as
a whole, could lead a reasonable fact ﬁnder to return a
verdict for the non-movant. Id. In considering a motion
for summary judgment, the non-movant’s evidence is
to be believed and all reasonable inferences drawn in
its favor. See Stephens v. DeGiovanni, 852 F.3d 1298,
1313 (11th Cir. 2017) (citing Anderson, supra).
II.
A.

Background
Facts

The defendant’s motion raises a pure issue of law,
so the pertinent facts can be stated very brieﬂy.
On November 6, 2014, a U.S. Air Force F-16
Fighting Falcon jet ﬁghter (also known as a Viper) departed Tyndall Air Force Base, east of Panama City,

App. 32
Florida, for a continuation training (CT) sortie. The
only person on board was the pilot, Matthew LaCourse,
a 58-year old retired Air Force Lieutenant Colonel employed as a civilian by the Department of Defense. During the ﬂight—for reasons the parties dispute, but
which are not relevant here—the jet crashed into the
Gulf of Mexico more than twelve nautical miles from
shore where, tragically, LaCourse was killed.
B. Procedural History
Patricia LaCourse, LaCourse’s widow and personal representative of his estate, ﬁled a wrongful
death action in Florida state court against numerous
individuals and corporate entities that reportedly serviced and performed maintenance on the jet prior
to the crash, including the defendant. The complaint
alleged that the aircraft had been negligently serviced/maintained before the ﬂight, and it sought “all
damages permitted by law in an amount in excess of
ﬁve million dollars ($5,000,000). . . .” The defendant removed the action to this federal court based on admiralty jurisdiction and the Death on the High Seas Act
(DOHSA).1
III. Discussion
DOHSA provides that:
When the death of an individual is caused by
wrongful act, neglect, or default occurring on
1

The notice of removal asserted federal ofﬁcer and diversity
jurisdiction as well.

App. 33
the high seas beyond 3 [now 12] nautical
miles from the shore of the United States, the
personal representative of the decedent may
bring a civil action in admiralty against the
person or vessel responsible. The action shall
be for the exclusive beneﬁt of the decedent’s
spouse, parent, child, or dependent relative.[2]
46 U.S.C. § 30302. The statute limits recovery to “fair
compensation for the pecuniary loss sustained by the
individuals for whose beneﬁt the action is brought.” 46
U.S.C. § 30303; see also, e.g., Dooley v. Korean Air Lines
Co. Ltd., 524 U.S. 116,123 (1998) (“By authorizing only
certain surviving relatives to recover damages, and by
limiting damages to the pecuniary losses sustained by
those relatives, Congress provided the exclusive recovery for deaths that occur on the high seas.”); accord
Martins v. Royal Caribbean Cruises, Ltd., 2017 WL
1345117, at *2 (S.D. Fla. 2017) (“DOHSA limits recovery to the pecuniary loss sustained by the individuals for whose beneﬁt the action is brought. Therefore,
DOHSA bars recovery for non-pecuniary damages,
such as pain and suffering, mental anguish and loss of
2

As originally drafted in 1920, DOHSA applied to wrongful
death “on the high seas beyond a marine league from the shore,”
i.e., beyond three nautical miles In 1988, President Reagan issued
Proclamation 5928, “which . . . extended United States territorial
waters from three to 12 miles.” In re Air Crash Off Long Island,
New York, on July 17, 1996, 209 F.3d 200, 209 (2d Cir. 2000). In
light of this proclamation, DOHSA now applies to accidents occurring more than twelve nautical miles from the shore of any
state. Id. at 213 (“the effect of the Proclamation is to move the
starting point of the application of DOHSA from three to 12 miles
from the coast”).

App. 34
society. The amount of permissible damages available
[to plaintiffs] under DOHSA is extremely limited. . . .”);
Lasky v. Royal Caribbean Cruises, Ltd., 850 F. Supp. 2d
1309, 1312 (S.D. Fla. 2012) (noting “it is well-settled
that where DOHSA applies, it preempts all other forms
of wrongful death claims under State or general maritime law,” and further noting “DOHSA does not permit
Plaintiff to recover[ ] non-pecuniary damages”) (citing
multiple cases).
In its motion for summary judgment, the defendant seeks a ruling that this case falls under DOHSA
and is subject to its statutory limitation on damages.
Although the circumstances of LaCourse’s death ﬁt
within the literal language of the statute—that is to
say, he died more than twelve nautical miles from
shore—the plaintiff contends that DOHSA does not apply to the facts of this case for two reasons: (1) the negligent service or maintenance of the aircraft “took
place only on land and not on water, and certainly not
more than 12 miles from the coast of Florida;” and
(2) the ﬂight was a military training sortie “intended
to originate and terminate at the same spot, on land at
Tyndall AFB Florida, and it did not have a maritime
nexus.” See Pl. Resp. at 14. I will address each argument in turn.
A. Location of the Alleged Negligence
The plaintiff acknowledges that LaCourse’s death
was on the high seas, but she maintains that the negligence was on land at Tyndall Air Force Base. See Pl.

App. 35
Resp. at 8, 15. She contends that under the plain language of the statute, DOHSA only applies if death is
caused by a “wrongful act, neglect, or default occurring
on the high seas.” See id. at 15 (quoting 46 U.S.C.
§ 30302). In other words, as plaintiff reads the statute,
the negligence—and not necessarily the death—must
occur at sea. See id.
The plaintiff ’s interpretation “is a plausible reading of the act’s text, “Hassanati v. International Lease
Fin. Corp., 2011 WL 13177480, at *8 (C.D. Cal. 2011)
(noting same), but it is unsupported by case law. See id.
(citing and discussing multiple cases); see also, e.g.,
Motts v. M/V Green Wave, 210 F.3d 565, 567, 569 (5th
Cir. 2000) (“At ﬁrst glance, the plain text of this statutory provision seems to indicate that DOHSA is implicated only when the wrongful act precipitating death
occurs on the high seas. . . . As subsequent courts have
interpreted DOHSA, however, the statute’s application
is not limited to negligent acts that actually occur on
the high seas.”) (citing multiple cases). Thus, as the former Fifth Circuit stated in In re Dearborn Marine
Serv., 499 F.2d 263 (5th Cir. 1974): “DOHSA has been
construed to confer admiralty jurisdiction over claims
arising out of airplane crashes on the high seas though
the negligence alleged to have caused the crash occurred on land.” Id. at 272 n.17 (emphasis added) (citing additional cases) (binding precedent under Bonner
v. Prichard, 661 F.2d 1206, 1207 (11th Cir. 1981)); see
also, e.g., Motts, supra, 210 F.3d at 567, 569-70 (noting
“when the death itself occurs on the high seas, DOHSA
applies,” and that is so “even if a party’s negligence is

App. 36
entirely land-based”); Ostrowiecki v. Aggressor Fleet,
2008 WL 3874609, at *4 (E.D. La. 2008) (“In order for
DOHSA to apply, the acts causing the death need not
occur on the high seas as long as the death itself occurs
there.”)
As the Ninth Circuit has stated:
[DOHSA] has been held to refer to the site of
an accident on the high seas, not to where . . .
the wrongful act causing the accident may
have originated. It is therefore irrelevant that
. . . decisions contributing to the St. Patrick’s
unseaworthiness may have occurred onshore
or within territorial waters. DOHSA applies
to plaintiffs’ suits because the St. Patrick’s accident causing death occurred on the high
seas.
Bergen v. F/V St. Patrick, 816 F.2d 1345, 1348 (9th Cir.
1987); accord Zapata v. Royal Caribbean Cruises Ltd.,
2013 WL 1296298, at *4 (S.D. Fla. 2013) (“DOHSA
cases have never distinguished between negligent acts
or omissions occurring on land and those occurring at
sea. Accordingly, the question ofwhether RCCL’s alleged wrongful acts or omissions occurred on land or
on high seas is irrelevant, and DOHSA provides the
only remedy to Plaintiff.”) (citing Balachander v. NCL
(Bahamas), Ltd., 800 F. Supp. 2d 1196, 1201 (S.D. Fla.
2011) (same)); Bernard v. World Learning, Inc., 2010
WL 11505188, at *8 (S.D. Fla. 2010) (noting “DOHSA
applies where an accident and death occur on the high
seas, regardless of whether death was proximately
caused by negligence on land”). As then-district (now

App. 37
circuit) Judge Marcus observed in Moyer v. Rederi, 645
F. Supp. 620 (S.D. Fla. 1986): “authority is clear that a
cause of action under DOHSA accrues at the time and
place where an allegedly wrongful act or omission was
consummated in an actual injury, not at the point
where previous . . . negligence allegedly occurred.” Id.
at 627; Varner v. Celebration Cruise Line, 2015 WL
12868132, at *2 (S.D. Fla. 2015) (citing Moyer); Lasky,
supra, 850 F. Supp. 2d at 1312 (same); Fojtasek v. NCL
(Bahamas) Ltd., 613 F. Supp. 2d 1351, 1354 (S.D. Fla.
2009) (same).
One oft-cited case, Lacey v. L. W. Wiggins Airways,
95 F. Supp. 916 (D. Mass. 1951), is factually very similar to ours. The defendant in that case was under contract to inspect and service an airplane at Logan
International Airport prior to take off. The airplane
later crashed into the sea, killing the pilot, and the decedent’s estate brought suit alleging that the “failure
to inspect the plane, or negligent inspection of the
plane, or failure to inform the owner of a defect discovered, while the craft was on land, resulted in an accident on the high seas which caused the death of the
[pilot].” Id. at 917. The district court stated there (exactly as plaintiff has argued here): “It appears that the
phrase ‘occurring on the high seas’ . . . is adjectival of
‘wrongful act, neglect, or default’, rather than of
‘death’. . . . The statute is taken to mean, therefore,
that the wrongful act, neglect or default which caused
the death must have occurred on the high seas if a
right of action is to exist.” Id. at 918. However, the court
then proceeded to ask: “What is the import of ‘wrongful

App. 38
act, neglect, or default occurring on the high seas?’ ” Id.
It answered that question as follows:
The court concludes that when the statute
speaks of “wrongful act, neglect, or default occurring on the high seas”, it contemplates the
substance of the occurrence which resulted in
death and gave rise to a right to recover. The
substance of the occurrence here was not
merely the act or omission to act attributable
to the respondent while the craft was on land.
If the respondent failed to make a proper inspection of the craft, or failed to remedy a defect properly, or failed to notify the owner of
defects discovered during inspection and repair, the effect of such failure was not spent
until the plane fell to the sea. It appears from
the allegations in the [complaint] that the
wrongful act was consummated wholly upon
the water where the victim met his death.
There is no “shore ﬂavor” whatever to the substance of the occurrence, the consummation of
the wrongful act as distinguished from its
origin. Using the language of Mr. Justice Butler, delivering the opinion of the Supreme
Court in [Vancouver S.S. Co. v. Rice, 288 U.S.
445, 448 (1933)], the foundation of the right to
recover is a wrongful act or omission taking
effect on the high seas. This is a maritime tort
[under DOHSA], and upon it the [plaintiff ’s]
claim rests.

App. 39
Id. (emphasis added); see also Brown v. Eurocopter
S.A., 38 F. Supp. 2d 515, 517 (S.D. Tex. 1999) (noting
Lacey is “often cited” for this “instructive language”).3
None of the cases that plaintiff has cited are to the
contrary. See Pl. Resp. at 17. For example, she quotes
Lasky, supra, 850 F. Supp. 2d at 1312, which in turn
quoted Moyer, supra, 645 F. Supp. at 627, wherein the
courts noted that ‘the right to recover for death depends upon the law of the place of the act or omission
that caused it and not upon that of the place where
death occurred.’ ” However, as the defendant points out
in its reply memorandum, that quoted sentence was
made in the context of cases where a mortal injury occurred on the high seas, and those courts held that
3

The foregoing case law is just a small sample of the cases
holding that DOHSA is not limited to negligence at sea. There are
numerous others. In In the Matter of the Complaint v. Sea Star
Line, 2016 WL 6609219 (M.D. Fla. 2016), for example, a cargo
ship sank near the Bahamas and thirty-three people were killed.
Several of their estates ﬁled suit under the Florida Wrongful
Death Act and maritime law, alleging negligence by both the ship
captain and the shipowners. The captain argued that “DOHSA
provides the exclusive relief against him in this case because the
deaths occurred on the high seas,” while plaintiffs argued in reply
that “DOHSA does not apply” because they alleged that some of
the negligence occurred on land while the ship was docked in the
Port of Jacksonville. See id. at *1-3. Citing several of the cases
noted above, Judge Schlesinger wasted little time holding that
“case law makes clear that DOHSA applies where death . . . occurs on the high seas, regardless of where other acts of negligence
may have occurred before . . . the fatal accident.” Id. at *3; see
also, e.g., Smith v. Pan Air Corp., 684 F.2d 1102, 1111 (5th Cir.
1982) (holding that DOHSA applied to fatal aircraft crash at sea
and stating “the place where the negligence or wrongful act occurs
is not decisive”).

App. 40
DOHSA applied even though the decedent survived
long enough to make it to the shore. Thus, applying
those two cases here would mean if LaCourse had initially survived the crash but later succumbed to his injuries while on land, DOHSA would still apply. The
cases do not say that DOHSA only applies if the underlying negligence occurred on the high sea. In fact, as
earlier noted, they literally say the opposite. Moyer,
645 F. Supp. at 627 (“authority is clear that a cause of
action under DOHSA accrues at the time and place
where an allegedly wrongful act or omission was consummated in an actual injury, not at the point where
previous . . . negligence allegedly occurred”); see also
Lasky, 850 F. Supp. at 1312 (quoting same).
Consequently, the plaintiff ’s argument that
DOHSA does not apply because she alleges negligence on land at Tyndall Air Force Base must be
rejected.
B. Maritime Nexus
In Executive Jet Aviation v. City of Cleveland, 409
U.S. 249 (1972), an airplane took off from Cleveland,
Ohio, heading for Portland, Maine. Shortly after take
off, the aircraft struck a ﬂock of seagulls, and the birds
were ingested into the engine, which caused the plane
to almost completely lose power and crash into the
navigable waters of Lake Erie. The crew was not injured, but the aircraft soon sank and was declared a
total loss. Subsequently, the owners brought an action
against the City of Cleveland in admiralty for loss of

App. 41
the plane, alleging negligence by the airport, airport
manager, and air trafﬁc controller. The district court
dismissed the case, holding that it was not “cognizable
in admiralty”—despite that most of the damage to the
aircraft occurred only after and because it sank in navigable water—and the Sixth Circuit afﬁrmed. The
plaintiffs appealed to the Supreme Court. In afﬁrming,
the Court held that a two-part test must be satisﬁed
for there to be admiralty jurisdiction on the facts of
that case: (1) the alleged wrong must have occurred or
been located on or over “navigable waters,” and, importantly, (2) it must “bear a signiﬁcant relationship to
traditional maritime activity.” Id. at 268. Because the
airplane in Executive Jet was to ﬂy from Cleveland to
Portland (which means it “would have been almost
entirely over land . . . within the continental United
States”), the Supreme Court found that it was “only
fortuitously and incidentally connected to navigable
water,” and thus it bore “no relationship to traditional
maritime activity.” Id. at 272-73.
For her second argument, the plaintiff contends
that DOHSA is not applicable to this case because
there is no admiralty jurisdiction under Executive Jet.
Speciﬁcally, she argues that because LaCourse’s sortie
was intended to begin and end at the same spot on
land at Tyndall Air Force Base—and it was merely
“fortuitously over water” at the time of the crash—it,
too, did not have a signiﬁcant relationship to “traditional maritime activity.” See generally Pl. Resp. at 1622. This argument must be rejected, however, because
“the maritime nexus requirement has been explicitly

App. 42
adopted only for torts occurring on the navigable
waters within the United States and not for torts
occurring on the high seas.” Palischak v. Allied Signal
Aerospace Co., 893 F. Supp. 341, 344-45 (D.N.J. 1995)
(citing Executive Jet, 409 U.S. at 268) (emphasis
added).
Furthermore, the Supreme Court stated in Executive Jet that a maritime nexus is only required “in the
absence of legislation to the contrary,” and it expressly
stated in footnote 26 that DOHSA was such a statute:
Some [flights between points within the continental United States], e.g., New York City to
Miami, Florida, no doubt involve passage over
“the high seas beyond a marine league from
the shore of any State.” To the extent that the
terms of the Death on the High Seas Act become applicable to such ﬂights, that Act, of
course, is “legislation to the contrary.”
409 U.S. at 268, 274 & n.26 (emphasis added). Thus, as
the Second Circuit has noted:
Appellant argues that it was error for the District Court to rule that her wrongful death
claim was governed by the Death on the High
Seas Act, 46 U.S.C. § 761 et seq. (“DOHSA”).
Although she concedes that the circumstances
of Mayer’s death clearly fall within the literal
language of DOHSA, she nevertheless urges
that DOHSA should apply only if the alleged
wrong bears a significant relationship to
traditional maritime activity. See Executive
Jet Aviation, Inc. v. Cleveland, 409 U.S. 249
(1972). In Executive Jet, the Supreme Court

App. 43
emphasized that the nexus requirement is a
predicate for admiralty jurisdiction in cases
where there is no controlling statute to the
contrary. Id. at 268, 271. DOHSA is speciﬁcally mentioned to illustrate such a statute. Id.
at 271 n.20, 274 n.26.
Mayer v. Cornell University, 107 F.3d 3, 4 (2d Cir. 1997)
(emphasis added). The Fifth Circuit has similarly
stated:
the Court in Executive Jet noted that the federal courts are to apply the two-pronged test
for admiralty jurisdiction “in the absence of
legislation to the contrary.” DOHSA qualiﬁes
as “legislation to the contrary.” So even if the
two-pronged test for admiralty jurisdiction
has not been met, DOHSA confers federal admiralty jurisdiction where the injury or accident resulting in death occurred while the
decedent was at sea.
Motts, supra, 210 F.3d at 571 (internal citation omitted); see also, e.g., Wolf v. Tico Travel, 2011 WL
5920918, at *3 n.3 (D.N.J. 2011) (relying on footnote
26 in holding that “[b]ecause DOHSA applies . . . the
Court need not go through an Executive Jet analysis”);
Bernard, supra, 2010 WL 11505188, at *8 n.14 (noting
“DOHSA does not require a maritime nexus”) (collecting multiple cases); accord Palischak, supra, 893
F. Supp. at 345 (stating that “the two-pronged test referred to in Executive Jet . . . only applies in the absence of a statute to the contrary, and the Supreme
Court in Executive Jet repeatedly and explicitly emphasized that DOHSA was such a statute . . . therefore,

App. 44
the requirement of a traditional maritime nexus is not
a prerequisite to the exercise of admiralty jurisdiction
pursuant to DOHSA”) (quoting Friedman v. Mitsubishi
Aircraft Int 1, 678 F. Supp. 1064, 1065 (S.D.N.Y. 1988));
Kunreuther v. Outboard Marine Corp., 757 F. Supp.
633, 634 (E.D. Pa. 1991) (quoting Friendman and holding same).
The plaintiff acknowledges footnote 26 in Executive Jet, but because that case involved property damage and not wrongful death, she dismisses it as mere
dicta. See Pl. Resp. at 20 & n.3. There are at least two
problems with this.
First, as the Eleventh Circuit has stated, “there is
dicta and then there is dicta, and then there is Supreme Court dicta.” Schwab v. Crosby, 451 F.3d 1308,
1325 (11th Cir. 2006). Dicta from the Supreme Court
“ ‘is not something to be lightly cast aside.’ ” Id. (quoting Peterson v. BMI Refractories, 124 F.3d 1386, 1392
n.4 (11th Cir. 1997)); see also United States v. Becton,
632 F.2d 1294, 1296 n.3 (5th Cir. 1980) (“We are not
bound by dicta, even of our own court . . . Dicta of
the Supreme Court are, of course, another matter.”);
United States v. City of Hialeah, 140 F.3d 968, 974
(11th Cir. 1998) (stating that “[e]ven though that statement by the Supreme Court . . . was dictum, it is of considerable persuasive value”).
Second, and more importantly, as the district court
noted in Palischak, supra, 893 F. Supp. at 345, “any
confusion on this issue was cleared up” fourteen years
after Executive Jet when the Supreme Court decided

App. 45
Offshore Logistics v. Tallentire, 477 U.S. 207 (1986). In
Tallentire, the Court plainly stated that “admiralty jurisdiction is expressly provided under DOHSA” when
wrongful death occurs more than three (now twelve)
nautical miles off the shore. See 477 U.S. at 218. Following that decision, and as the previously-cited cases
make clear, federal courts have frequently (and, as far
as I can tell, uniformly) held that a maritime nexus is
not required for such deaths to fall within the statute.
See, e.g., Ventura Packers, Inc. v. F/V Jeanine Kathleen,
305 F.3d 913, 918 (9th Cir. 2002) (noting “several courts
initially presumed” the maritime nexus requirement,
but post-Tallentire “the prevailing view holds that
DOHSA established independent requirements for the
exercise of admiralty jurisdiction”); Motts, supra, 210
F.3d at 570-71 & n.4 (“the correct view” post-Tallentire
is “DOHSA supplies admiralty jurisdiction independent of any doctrinal test,” therefore, “the two-pronged
test for admiralty jurisdiction [does not have to be]
met”); see also Palischak, supra, 893 F. Supp. at 345 &
n.5 (holding “the requirement of a traditional maritime
nexus is not a prerequisite to the exercise of admiralty
jurisdiction pursuant to DOHSA,” and noting “[w]e are
unable to locate a single decision after Tallentire in
which a lower court required a maritime nexus before
applying DOHSA”).4
4

The plaintiff has cited two district court cases that applied
Executive Jet’s maritime nexus test to fatal plane crashes on the
high seas. See Pl. Resp. at 22 (citing Brons v. Beech Aircraft Corp.,
627 F. Supp. 230 (S.D. Fla. 1985), and Hayden v. Krusling, 531
F. Supp. 468 (N.D. Fla. 1982)). Brons, in turn, relied on Miller v.
United States, 725 F.2d 1311 (11th Cir. 1984), where the Eleventh

App. 46
In light of the foregoing law, it is irrelevant
whether LaCourse’s F-16 bore a “signiﬁcant relationship to traditional maritime activity.” What matters is
that at the time of the crash it is undisputed he was
more than twelve nautical miles from shore. That is all
that is required under DOHSA. As the Fifth Circuit
has succinctly stated: ‘The simple fact that [the decedent’s] death occurred as a result of an aircraft crash
into the high seas is alone enough to confer jurisdiction under the DOHSA.’ ” Motts, supra, 210 F.3d at 569
(quoting Smith v. Pan Air Corp., 684 F.2d 1102, 1111
(5th Cir. 1982)); see also id. at 570 n.2 (a ﬁnding that
“admiralty jurisdiction could exist under DOHSA
without a maritime nexus” has been described as “consistent with DOHSA’ s framework and purpose”) (citation omitted).

Circuit presumed that a maritime nexus may be required under
DOHSA. See id. at 1315 (concluding that DOHSA provided jurisdiction over aviation crash after ﬁnding that there was a maritime nexus on the facts of that case). But, as several courts have
noted—including at least one district court in this circuit—those
decisions were all pre-Tallentire. See Ventura Packers, supra, 305
F.3d at 918 (listing Miller as an example of the “several courts
[that] initially presumed” DOHSA required a maritime nexus, but
noting the cases were before Tallentire); Palischak, supra, 893
F. Supp. at 345 (citing Miller and Brons and noting same); see also
Bernard, supra, 2010 WL 11505188, at *8 n.14 (S.D. Fla. 2010)
(acknowledging the circuit precedent in Miller, but noting it was
“decided prior to Tallentire” and a maritime nexus is no longer
required).

App. 47
IV. Conclusion
As stated above, the plaintiff ’s claims are subject
to DOHSA. Because DOHSA provides the exclusive
remedy for death on the high seas, preempts all other
forms of wrongful death claims, and only permits recovery for pecuniary damages, the plaintiff must proceed under that statute and is barred from seeking
non-pecuniary damages in this action. To that extent,
the defendant’s motion for partial summary judgment
(doc. 56) is GRANTED.
DONE and ORDERED this 23rd day of February
2018.
/s/ Roger Vinson
ROGER VINSON
Senior United States
District Judge

App. 48
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF FLORIDA
PENSACOLA DIVISION
PATRICIA LACOURSE,
individually and as Personal
Representative of the Estate
of Lt. Col. Matthew LaCourse,
Plaintiff,

Case No.
3:16cv170-RV/CJK

v.
DEFENSE SUPPORT
SERVICES LLC, et al.,
Defendants.

/

ORDER
(Filed Oct. 31, 2018)
On November 6, 2014, a U.S. Air Force F-16
Fighting Falcon jet ﬁghter (also known as a Viper) departed Tyndall Air Force Base, east of Panama City,
Florida, for a continuation training (CT) sortie. The
only person on board was the pilot, Matthew LaCourse,
a 58-year old retired Air Force Lieutenant Colonel employed as a civilian by the United States Department
of Defense. During the ﬂight, the jet crashed into the
Gulf of Mexico more than 12 nautical miles from shore
where, tragically, LaCourse was killed.
Patricia LaCourse, LaCourse’s widow and personal representative of his estate, ﬁled a wrongful
death action in Florida state court against numerous
individuals and corporate entities that allegedly serviced and performed maintenance on the jet prior to

App. 49
the crash, including defendant Defense Support Services LLC. The plaintiff alleged that the defendant
negligently serviced or maintained the aircraft before
take-off and that said negligence caused the crash. The
complaint asserted three wrongful death-based claims:
“Wrongful Death Caused by Negligence” (Count 1);
“Wrongful Death Caused by Breach of Warranty”
(Count 2); and “Wrongful Death Caused by Breach of
Contract” (Count 3). The plaintiff sought “all damages
permitted by law in an amount in excess of ﬁve million
dollars ($5,000,000),” and she requested a jury trial.
The defendant timely removed the action to this
federal court based on several jurisdictional bases, including federal ofﬁcer and diversity jurisdiction. In addition, the defendant’s notice of removal asserted
jurisdiction based on the Death on the High Seas Act
(DOHSA). See, e.g., Motts v. M/V Green Wave, 210 F.3d
565, 569 (5th Cir. 2000) (“The simple fact that [the decedent’s] death occurred as a result of an aircraft crash
into the high seas [more than 12 nautical miles from
shore] is alone enough to confer jurisdiction under the
DOHSA.’ ”). However, the plaintiff disputed that there
was federal jurisdiction in this case on any basis (doc.
22 at 1-3 & ¶4). Subsequently, the defendant moved for
partial summary judgment, seeking a ruling from the
court (1) that plaintiff ’s claims did fall under DOHSA,
and (2) that, pursuant to the statute, any potential recovery would be limited to pecuniary damages. The
plaintiff opposed the motion.
By order dated February 23, 2018, I granted the
defendant’s motion for partial summary judgment on

App. 50
both contested points, expressly holding that “the
plaintiff ’s claims are subject to DOHSA” and that
“DOHSA provides the exclusive remedy for death on
the high seas, preempts all other forms of wrongful
death claims, and only permits recovery for pecuniary
damages.” See Order at 13 (emphasis added).
The defendant has now ﬁled a motion to strike (or,
in the alternative, a motion for partial summary judgment), asking that I strike (or grant summary judgment as to) the plaintiff ’s breach of warranty and
breach of contract claims and her jury demand (doc.
82). The plaintiff ﬁled a response in opposition (doc.
83); the defendant ﬁled a reply to that response (doc.
84); the plaintiff ﬁled a supplement in further opposition (doc. 86); and the defendant then ﬁled a supplemental reply (doc. 87).
With respect to the breach of warranty and breach
of contract claims (both of which arise out of the alleged wrongful death), they must obviously be stricken.
My previous ruling that DOHSA applies and “preempts all other forms of wrongful death claims” is the
law of the case. Order at 13; see also id. at 3-4 (citing
and quoting Lasky v. Royal Caribbean Cruises, Ltd.,
850 F. Supp. 2d 1309, 1312 (S.D. Fla. 2012) (noting “it
is well-settled that where DOHSA applies, it preempts
all other forms of wrongful death claims under State
or general maritime law”) (citing multiple cases)).
Consequently, all that remains in this case is the
DOHSA claim. That means the jury demand must be
stricken, too. See, e.g., Tallentire v. Offshore Logistics,

App. 51
Inc., 800 F.2d 1390, 1391 (5th Cir. 1986) (speciﬁcally
holding that where the “sole predicate” for liability is
DOHSA, the plaintiff “is not entitled to a jury trial”)
(citing Curry v. Chevron, USA, 779 F.2d 272, 274 n.1
(5th Cir. 1985) (“DOHSA actions are brought in admiralty and as such no trial by jury may be had.”));
Reistetter v. Royal Caribbean Cruises Ltd., 2008 WL
5397139, at *1 n.2 (S.D. Fla. 2008) (“It is clear that
Plaintiff ’s claims arising under [DOHSA] are cognizable only in admiralty, with no right to trial by jury.”)
(citing Tallentire, supra, and Neenan v. Carnival Corp.,
2001 WL 91542 (S.D. Fla. 2008)); McAleer v. Smith, 791
F. Supp. 923, 930 (D.R.I. 1992) (“DOHSA claims are
generally tried by the Court sitting without a jury”);
Friedman v. Mitsubishi Aircraft Int’l Inc., 678 F. Supp.
1064, 1065-66 (S.D.N.Y. 1988) (rejecting plaintiff ’s contention that she was entitled to trial by jury in a
DOHSA action because there was diversity of citizenship; holding that “since DOHSA provides a remedy in
admiralty, admiralty principles are applicable and a
DOHSA plaintiff has no right to a jury trial of wrongful
death claims”) (citations omitted); Heath v. American
Sail Training Ass’n, 644 F. Supp. 1459, 1471-72 (D.R.I.
1986) (no jury trial for DOHSA claims). But see Lasky,
supra, 850 F. Supp. 2d at 1313-15 (surveying the law
and stating that plaintiff could potentially be entitled
to a jury trial by a federal court sitting in admiralty
over DOHSA cause of action if the plaintiff asserted
“an independent basis for diversity jurisdiction and/or

App. 52
a concurrent claim that entitles Plaintiff to a jury
trial,” neither of which is present here).1
The defendant’s motion (doc. 82) is GRANTED,
and the plaintiff ’s breach of warranty and breach of
contract claims, along with her jury demand, are
stricken.
DONE and ORDERED this 31st day of October
2018.
/s/ Roger Vinson
ROGER VINSON
Senior United States
District Judge

1

Assuming that plaintiff is not entitled to a jury trial as of
right (and I just said she is not), the plaintiff alternatively requests that I empanel “an advisory jury to promote judicial economy.” This request is denied without discussion.

App. 53
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF FLORIDA
PENSACOLA DIVISION
PATRICIA LACOURSE,
individually and as Personal
Representative of the Estate
of Lt. Col. Matthew LaCourse,
Plaintiff,

Case No.
3:16cv170-RV/HTC

v.
DEFENSE SUPPORT
SERVICES LLC, et al.,
Defendants.

/
ORDER

(Filed Aug. 29, 2019)
On November 6, 2014, a U.S. Air Force F-16 ﬁghter
jet departed from Tyndall Air Force Base, near Panama City, Florida, to join up with an F-4 ﬁghter jet—
which was playing the part of a drone—for a continuation training sortie. The only person on board the F-16
was the pilot, Matthew J. LaCourse, a 58-year-old retired Air Force Lieutenant Colonel employed as a civilian by the Department of Defense. Tragically, the
aircraft crashed into the Gulf of Mexico toward the end
of the sortie and LaCourse was killed.
The plaintiff, Patricia LaCourse, is LaCourse’s
widow and was designated the personal representative
of his estate. She brought this wrongful death action in

App. 54
Florida state court against the defendant, PAE Aviation Technical Services (PAE), a company that was under contract with the government to provide service
and maintenance on aircraft at Tyndall, including the
F-16 (hereinafter, the Mishap Aircraft).1 PAE timely
removed the lawsuit to this federal court.2
Discovery is now closed and PAE moves for ﬁnal
summary judgment (doc. 96) (Def. Mot.). PAE contends
in this motion that it is immune from liability based
upon the government contractor defense. The plaintiff
ﬁled a response in opposition to the motion (doc. 108)
(Pl. Resp.), and PAE ﬁled a reply to the response (doc.
111) (Def. Reply). In support of their respective pleadings, the parties ﬁled a very large number of documents. These documents—which total approximately
6,700 pages—include, inter alia:
(1) Maintenance records for the Mishap Aircraft
(doc. 108-10) (Maint. Rec.).

1

The contract was actually awarded to PAE’s predecessor,
Defense Support Services LLC (DSS), which was the original
named defendant in this action. Because PAE took over the contract when it purchased the company—and DSS no longer exists—I will refer to the contractor/defendant as PAE for purposes
of this order.
2
The plaintiff initially sued three other PAE-related entities
as well, but they were voluntarily dismissed shortly after the
lawsuit was removed (docs. 19, 20, 21). She also sued several
individual “John Doe” defendants, but fictitious-party pleading
is generally not allowed in federal court. See, e.g., Weiland v.
Palm Beach County Sheriff ’s Ofﬁce, 792 F.3d 1313, 1318 n.4 (11th
Cir. 2015). Thus, PAE is the only defendant in this case.

App. 55
(2) Deposition testimony of several PAE employees, including Timothy Davis (doc. 95-4, 5) (T. Davis
Dep.); Michael Reeves (doc. 95-12) (Reeves Dep.); Michael Bogaert (doc. 95-20) (Bogaert Dep.); and Steve
Davis (doc. 108-8) (S. Davis Dep.).
(3) Deposition testimony of Captain Michelle
Chiaravalle, maintenance member on the Air Force’s
Air Combat Command Accident Investigation Board
(AIB) (doc. 95-26) (Chiaravalle Dep.).
(4) Deposition testimony of Senior Master Sergeant Marquell DeOngelo Fallin, an investigator on
the Air Force’s Safety Investigation Board (SIB) (doc.
95-1) (Fallin Dep.).
(5) Deposition testimony of the plaintiff ’s four
expert witnesses, Scott E. Stutler (doc. 95-32) (Stutler
Dep.); Frederic G. Ludwig Jr. (doc. 95-33) (Ludwig
Dep.); Gary Kibbee (doc. 95-34) (Kibbee Dep.); and
Kent W. Ewing (doc. 95-35) (Ewing Dep.), and their respective expert reports (docs. 108-19, 108-15, 108-17,
108-20).
By Order and Notice dated March 4, 2019, the parties were directed to ﬁle any and all additional evidentiary material by March 19, 2019 (doc. 121). Neither
side did so.3 I later held an oral argument on May 23,

3

Although no additional evidence was ﬁled in response to
my March 4th Order and Notice, PAE did file a “Notice of
Specific Page and Line Designations of Plaintiffs Experts” to
highlight specific portions of the plaintiff’s earlier-filed expert
testimony (doc. 125). In abundance of caution, and because of

App. 56
2019. See Transcript of Oral Argument, dated May 23,
2019 (doc. 129) (Tr.). At the end of oral argument, I took
the motion for summary judgment under advisement
and stated that this order would follow.
I.

Standard of Review

Summary judgment is appropriate if all the pleadings, discovery, afﬁdavits, and disclosure materials on
ﬁle show that there is no genuine disputed issue of material fact, and the movant is entitled to judgment as a
matter of law. Fed. R. Civ. P. 56(a), (c). The plain language of Rule 56(c) mandates the entry of summary
judgment, after adequate time for discovery and upon
motion, against any party who fails to make a showing
sufﬁcient to prove the existence of an element essential
to that party’s case, and on which that party will bear
the burden of proof at trial. Celotex Corp. v. Catrett, 477
U.S. 317, 322 (1986).
Summary judgment is inappropriate if a reasonable factﬁnder evaluating all of the evidence could draw
more than one inference from the facts, and if that
inference raises a genuine issue of material fact. See,
e.g., Allen v. Board of Public Educ. for Bibb County, 495
F.3d 1306, 1315 (11th Cir. 2007) (citations omitted).
An issue of fact is “material” if it might affect the outcome of the case under the governing law. See Anderson
v. Liberty Lobby, 477 U.S. 242, 248 (1986). It is “genuine” if the record, viewed as a whole, could lead a
their signiﬁcance to this case, I read the deposition testimonies of
the plaintiffs four expert witnesses in full—all 1012 pages.

App. 57
reasonable factﬁnder to return a verdict for the nonmovant. Id.
In considering a motion for summary judgment,
the record must be construed in the light most favorable to the non-movant; her evidence must be believed;
and all reasonable inferences must be drawn in her favor. Allen, 495 F.3d at 1315; see also, e.g., United States
v. Onabanjo, 351 F.3d 1064, 1065 n.1 (11th Cir. 2003).
But this favorable construction is not unlimited. In
opposing summary judgment, the non-movant “ ‘must
do more than simply show that there is some metaphysical doubt as to the material facts.’ ” Transcontinental Gas Pipe Line Co. LLC v. 6.04 Acres, More or
Less, Over Parcel(s) of Land of Approximately 1.21
Acres, More or Less, Situated in Land Lot 1049, 910
F.3d 1130, 1154 (11th Cir. 2018) (quoting Matsushita
Elec. Indus. Co., Ltd. v. Zenith Radio Corp., 475 U.S.
574, 586 (1986)). If the evidence produced by the nonmovant is “ ‘merely colorable, or is not signiﬁcantly
probative, summary judgment may be granted.’ ” Id.
(quoting Anderson, 477 U.S. at 249-50).
Unsupported statements by counsel made in
briefs and at oral argument are not evidence. See, e.g.,
Green v. School Bd. of Hillsborough Cty., Fla., 25 F.3d
974, 979 (11th Cir. 1994); United States v. Smith, 918
F.2d 1551, 1562 (11th Cir. 1990); accord United States
v. Cardona, 302 F.3d 494, 497 (5th Cir. 2002) (“arguments in brief[s] are not evidence”). It follows therefrom that attorney arguments alone cannot preclude
summary judgment. See Rich v. Dollar, 841 F.2d
1558, 1565 & n.5 (11th Cir. 1988) (reversing denial of

App. 58
summary judgment for defendant where the district
court relied on “assertions in the memorandum prepared by Rich’s counsel rather than upon the factual
showing submitted under oath by Rich”); accord, e.g.,
Taylor v. Holiday Isle, LLC, 561 F. Supp. 2d 1269, 1275
n.11 (S.D. Ala. 2008) (“Unadorned representations of
counsel in a summary judgment brief are not a substitute for appropriate record evidence.”); Smith v. Housing Auth. of City of Prichard, 2007 WL 735553, at *6
n.14 (S.D. Ala. 2007) (“These assertions [by plaintiff in
opposition to summary judgment] are unaccompanied
by citations to the record, and lack support therein. Of
course, mere unsupported representations of counsel
do not constitute evidence that may be considered on
summary judgment.”) (quoting Nieves v. University of
Puerto Rico, 7 F.3d 270, 276 n.9 (1st Cir. 1993) (“Factual assertions by counsel in motion papers, memoranda, briefs, or other such ‘self-serving’ documents,
are generally insufﬁcient to establish the existence of
a genuine issue of material fact at summary judgment.”); Bowden ex rel. Bowden v. Wal-Mart Stores, 124
F. Supp. 2d 1228, 1236 (M.D. Ala. 2000) (“opinions, allegations, and conclusory statements of counsel do not
substitute for evidence” on summary judgment)).
Thus, a party opposing summary judgment must
point to speciﬁc portions in the record where evidence
of a genuine disputed issue of fact can be found. See
Fed. R. Civ. P. 56(c)(1)(A) (party asserting that a fact is
genuinely disputed must support the assertion by “citing to particular parts of materials in the record, including depositions, documents, electronically stored

App. 59
information, afﬁdavits or declarations, stipulations (including those made for the purposes of the motion
only), admissions, interrogatory answers, or other materials”); accord N.D. Fla. Loc. R. 56.1(F) (parties on
summary judgment “must include pinpoint citations to
the record evidence supporting each factual assertion”); see also A.L. v. Jackson County School Bd., 635
F. App’x 774, 786-87 (11th Cir. 2015) (“ ‘district court
judges are not required to ferret out delectable facts
buried in a massive record’ ” and, therefore, they are
not required to “ ‘mine’ ” the record looking for evidence
that wasn’t cited by the parties) (citations omitted).
II.

Background

Except as otherwise noted, the following facts are
undisputed or, if disputed, resolved in the plaintiff ’s favor where supported by evidence in the record. In fact,
as will be seen, most of these facts come from the plaintiff ’s own expert witnesses.
On March 3, 2009, PAE was awarded a contract
with the government to provide aircraft service and
maintenance at Tyndall Air Force Base (doc. 86-1). In
performing under the contract, PAE was required to
follow very detailed guidelines and adhere to speciﬁc
standards, including Air Force Instructions (AFIs) and
Technical Orders (TOs), all of which were prepared by,
or on behalf of, the Air Force. See Affidavit of David
Olson, dated November 15, 2018 (doc. 96-2) (Olson
Aff.), at ¶¶ 7-19.

App. 60
F-16s are equipped with two hydraulic systems:
System A and System B. See Ludwig Dep. at 131-32.
The systems are independent of one another and designed to allow the pilot to continue ﬂying the aircraft
if one of the systems fails. Id.; see also id. at 162 (agreeing that if one system goes down and the other one is
operating as it should, “the pilot will not even notice a
discrepancy in the handling”). Beginning in September
2014—two months before the crash—the Mishap Aircraft experienced several problems that implicated one
or both of its hydraulic systems. See Stutler Dep. at
244-45 (testifying that the hydraulic issues began in
mid-September 2014). These problems are as follows:
• On September 11th, the outboard hydraulic ﬂight control accumulator gauge had hydraulic ﬂuid in it.
• On September 17th, the Mishap Aircraft’s
hydraulically actuated landing gear (which is
part of System B) did not retract during a
ﬂight.
• On October 22nd, a hydraulic system pressure line clamp broke on System A.
• On October 27th, there was a second inﬂight failure in System B when the landing
gear on the Mishap Aircraft once again failed
to retract.
• On October 29th, the System B reservoir
accumulator was depleted.
• On October 31st, the Mishap Aircraft was
manned up with the intent to ﬂy, but a

App. 61
hydraulic leak was discovered during the
ﬂight control check and the mission was
aborted before it took off.
• Also on October 31st, System A had no
pressure indication in the cockpit, and the
System B ﬂight control accumulator precharge was low.
• On November 3rd, PAE servicers performed a “conﬁdence run” and both System A
and System B failed.
See, e.g., Maint. Rec. at 2-3, 8-11, 13-14; S. Davis Dep.
at 69-70, 117-20, 129; accord Pl. Resp. at ¶ 33 (citing
the Mishap Aircraft’s maintenance records and summarizing these same “hydraulic system related failures”).4
4

The plaintiff goes on to identify an additional hydraulic
“problem” in her summary that I did not list above. Speciﬁcally,
during the maintenance performed on November 3rd, the PAE
servicers broke a tool (a scribe) and lost a 2-inch long part of the
tool inside the Mishap Aircraft. As a result, the aircraft was impounded to allow for an investigation and to ﬁnd the missing tool.
Although the plaintiff notes that the Mishap Aircraft was impounded because of the missing scribe, that is not a hydraulic
problem; and her expert witness, Scott Stutler, has testiﬁed that
the impound was “proper” and “good maintenance.” See Stutler
Dep. at 278-79. Accordingly, I did not include the lost tool and
subsequent impound in the list of “hydraulic system related failures.”
As for the other problems that are listed above, I will assume
for purposes of this order that they were all related to the hydraulic systems (because that is what plaintiff’s experts have opined),
but that is far from certain. Take, for example, the failure of the
landing gear to retract on September 17th. Although Stutler
stated in his expert report that the failure of the landing gear to

App. 62
All of the foregoing problems were addressed and
corrected as they presented. See Maint. Rec. at 2-3,
8-11, 13-14. Thus, for example, PAE mechanics replaced the broken clamp and gauge, and they installed
two new accumulators. See id.; see also, e.g., Bogaert
Dep. at 58-63. After PAE installed the new accumulators, the mechanics ran a 24-hour “leak and bleed”
check to ensure that they were working properly and
not leaking. See Bogaert Dep. at 61-63. Notably, the
plaintiff doesn’t appear to claim that the corrective actions identiﬁed in the maintenance records had not actually been done, nor does she claim that they were
done improperly. See Ludwig Dep. at 76-77 (“Q: Do you
intend to express any opinion that the maintenance
performed . . . by PAE itself was inappropriate? They
put the wrong accumulator on, for example? They put
the wrong piece in? They followed the wrong procedure
retract was a hydraulic problem (doc. 108-19), he conceded at deposition under questioning by defense counsel that the landing
gear failed due to a faulty solenoid, which is “an electrical piece of
equipment” and “not a hydraulic valve.” See Stutler Dep. at 240;
see also id. at 240-41 (further conceding that the landing gear issue “related to an electrical problem”). He later tried to rehabilitate his testimony on this point during cross examination by the
plaintiff’s counsel when he testiﬁed that the landing gear problem
was “actually electric hydraulic” because there could have been
vibrations in the hydraulic system that were “sending a bad signal on the electrical side of the solenoid.” See id. at 332-33, 33536. However, as Stutler went on to admit on re-direct, he has no
evidence that it happened here and he has never heard, seen, or
read of it ever happening anywhere else. See id. at 336-38; see also
id. at 339 (“Q: [I]n all of your experience and all of your years and
your deployments and being at Homestead and all of your experience with F-16s, have [you ever] heard of that scenario happening
where vibrations caused a solenoid to fail? A: Speciﬁcally, no.”).

App. 63
or protocol? A: No. Q: Do you have any information
from any source that the records that you have seen
that indicate the maintenance that was performed are,
in fact, untrue? A: No.”); accord id. at 144-47 (testifying
that there is no allegation that PAE “missed a leak, an
overﬂow, a noise, [or] anything,” and conceding that the
maintenance work they did “appear[s] to have been
done properly”); Kibbee Dep. at 267 (“Q: . . . [Y]ou’re
not coming in as an expert to testify that the maintainers improperly installed a part? A: No . . . Q: Put it in
backwards . . . [or] something—A: No.”) Instead, as will
be discussed further infra, the gist of plaintiff ’s claim
is that PAE should have treated the hydraulic issues
as a chronic problem, grounded the Mishap Aircraft,
and sent it for additional (“depot- level”) maintenance.
See Ewing Dep. at 61-62, 172-76 (testifying that PAE
mechanics “changed a gauge here, they changed an
actuator there,” but the underlying problem was “something deeper” that warranted grounding and further
maintenance); see also, e.g., Stutler Dep. at 150-54, 28183; Ludwig Dep. at 75-76, 145-46, 160, 176, 183.
On the day of the crash, there were two issues with
the Mishap Aircraft shortly before takeoff. First, the
emergency power unit (EPU) took longer than expected to come on during the pre-ﬂight check, but it
eventually came on and passed the check. See T. Davis
Dep. at 34. Next, there was an issue with the pitch
override (PO) check, which requires the pilot to apply
full pressure on the stick and press the PO switch to
make the stabilizers at the tail move a few inches or
degrees in a nose-down direction. See id. at 42-44; see
also Stutler Dep. at 133-34; Fallin Dep. at 216-17. The

App. 64
Mishap Aircraft failed the PO check two times before
passing it on the third try. See Bogaert Dep. at 71-74;
see also T. Davis Dep. at 42-53.
Despite these two issues (or “hiccups,” see T. Davis
Dep. at 42-43), the Mishap Aircraft passed all of its
pre-flight checks, there was no indication of a problem with the hydraulic systems, and the plaintiff ’s experts agree that everything appeared to be normal (or
at least they are aware of no evidence to suggest that
things did not appear normal). See, e.g., Ewing Dep. at
57-58, 88, 93-94; Stutler Dep. at 185-89, 201-03; Ludwig Dep. at 100-02, 144-47.5 The PAE mechanics who
5

The only thing plaintiff ’s experts have identiﬁed as possibly indicating a hydraulic problem on the day of the crash concerned the failed PO checks. See Ludwig Dep. at 104 (opining that
the failed PO checks were an “indicator that there’s something
possibly wrong, knowing what I know about [the] previous hydraulic issues, even though they seemingly may be unrelated”);
Ewing Dep. at 57-58, 84-85 (opining that the failed PO checks
could have been a “notiﬁcation” that there was a hydraulic problem). PAE has pointed to evidence, however, suggesting that the
failed checks were actually the result of pilot error. Speciﬁcally,
Bogaert testiﬁed that:
After I got on the headset, after when Tim had ﬁnished
checking brakes, I got on a headset with Matt and
asked him if he had done [the PO check]. He said yes. I
told him I didn’t see it. He said do you want me to do it
again. I said yes, if you don’t mind. At which point he
tried to do it again, and they didn’t move. And I asked
him, are you holding the stick full forward, and he
wasn’t. He was just pushing, and they’re reaching over
and he’s releasing his pressure on the stick, is my best
guess. But I told him, no, Matt, that’s not it, and asked
him, are you holding the stick full forward as you hit
that switch. And he did that, and it worked perfect. He

App. 65
conducted the pre-ﬂight checks were all satisﬁed that
the Mishap Aircraft was safe to ﬂy and released it for
its ﬁnal ﬂight. LaCourse then taxied the aircraft down
the runway and took off to meet up with the F-4.
During the ﬂight, the Mishap Aircraft performed
a number of aerial maneuvers leading up to a “pitch
back,” which is an over-the-shoulder tactical maneuver
where the pilot uses the pitch axis to rejoin another
aircraft. See Ewing Dep. at 22. From all accounts, everything leading up to the pitch back appeared normal,
i.e., there was no gauge, light, warning, or caution indicating any problems, and there were no reports of
any vibrations, shakes, or “sponginess in the controls.”
See id. at 125-26 (agreeing that “the aircraft appeared
to be functioning properly on engine start, taxi out, end
of runway, takeoff, initial join-up with the F-4, and
ﬂight out to the Gulf, all of the steps before this pitch
back”); see also Kibbee Dep. at 279, 296 (agreeing that
there were no “warning lights going off in the cockpit”
during the ﬂight because if there had been they would
have been “picked up on the ﬂight data or crash ﬂight
data recorder,” and conceding there was “no report by
the pilot or the chase plane next to him, or anyone, once
the airplane took off, of any control issues, any erratic
operation, any vibrations felt, anything to indicate [a
released. I said that’s what I was looking for, technique.
See Bogaert Dep. at 73. Nevertheless, because we are here on
summary judgment, I must (and do) accept the plaintiff ’s evidence on this point as true and assume that the initial failed PO
checks were possibly related to hydraulic problems.

App. 66
problem]”). The problem occurred at the end of the
pitch back maneuver. See, e.g., Ludwig Dep. at 72
(testifying that the problem presented “during the
termination of his pitchback . . . as he is ﬁnishing the
maneuver”); Ewing Dep. at 126, 128 (testifying that
everything appeared to be “okay until the last part of
the ﬂight,” i.e., “at the conclusion of the pitch-back”).6
After the conclusion of the pitch back, LaCourse
appeared to level off and there was “a period of no data,
no inputs, no control or . . . no maneuvers.” See Ewing
Dep. at 24-25. The Mishap Aircraft then entered a
“pitch-down” from about 12,000 feet. See id. at 25-32.
LaCourse apparently made no effort to eject from the
aircraft or make a radio call during the descent. See,
e.g., Ludwig Dep. at 73, 108. At about 1,500 feet, “the
aircraft went wings level and went to military power
and pulled slightly degree within 6 ½ Gs,” after which
it hit the water. See id. at 72; see also Ewing Dep. at 32.
The AIB investigated the crash and concluded
that:
According to the results of the investigation,
the mishap occurred during intercept training
6

The “pitch back” has been described as a variation of an
“Immelmann” [Ewing Dep. at 23-24 (referring to the maneuver
as “a slashing Immelmann”)], which is a standard aerobatic
maneuver taught to military pilots. See, e.g., Flight Training
Instruction, Naval Air Training Command (2019), available at:
https://www.cnatra.navy.mil/local/docs/pat-pubs/P-764.pdf. It requires a rollout at the top of a loop, so that the aircraft makes a
high-G pull up and then a 180 degree roll at the top [see id.], both
of which can possibly cause the pilot to experience vertigo or black
out.

App. 67
with another aircraft. While attempting to
intercept the other aircraft, LaCourse performed a series of aircraft dynamic maneuvers that stimulated ﬂuid in his inner ear
canals which are responsible for perceptions
of gravity, balance, movement and direction.
As a result, he misperceived his angle of bank,
angle of pitch and general position and became spatially disoriented, which resulted in
his crash.
News Release, U.S. Air Force, Release No. 020915 (September 8, 2015), available at: http://www.airforcemag.
com/DRArchive/Documents/2015/September%202015/
091015aibﬂ6.pdf.
Unsurprisingly, the parties disagree about the
cause of the crash. The plaintiff believes that it was
caused by a dual-hydraulic failure due to nitrogen in
the hydraulic system. Speciﬁcally, her experts have
opined that the accumulators allowed nitrogen to leak
into and contaminate the hydraulic system reservoir
(either due to faulty seals on both new accumulators or
because the nitrogen was not fully “purged” during the
leak and bleed check), so that when the Mishap Aircraft performed its series of aerial maneuvers, the nitrogen got “sucked” into the two hydraulic pumps
simultaneously (in the form of foam “bubbles”), which
caused both accumulators to fail and rendered the
ﬂight controls non-responsive. See Kibbee Dep. at 10809, 161-66, 288-96; Ewing Dep. at 56-57, 66, 126-28,
174, 184-85; Stutler Dep. at 115, 205, 301; Ludwig Dep.
at 71-74, 98-99. According to this theory, the contamination occurred “days before the ﬂight and continuing,

App. 68
and then continuing through pre-ﬂight, taxi, and initial part of the ﬂight also.” Ewing Dep. at 56-57; accord
Kibbee Depo. at 125-26 (testifying that it’s “entirely
possible” the accumulators were leaking nitrogen on
November 3rd, three days before the ﬂight).
As previously indicated, the plaintiff does not allege that the maintenance and service that PAE performed on the Mishap Aircraft was itself negligent. She
does not allege, for example, that the PAE mechanics
installed the accumulators incorrectly or that they had
seen (or should have seen) that the accumulators were
leaking nitrogen. See Ewing Dep. at 58 (“Q: [D]uring
the ﬁnal inspection of the aircraft, the release of the
aircraft, the preﬂight by the pilot, the engine start, and
the taxi out, am I correct you do not believe there
were any indications of this contaminated hydraulic
system? A: None that I could tell.”) Instead, the plaintiff believes that the PAE mechanics should have dug
deeper into the Mishap Aircraft’s hydraulic-related
problems, and if they had they would have discovered
the hydraulic system was compromised.
PAE succinctly summarizes and dismisses the
plaintiff ’s experts’ theory of the crash as follows:
Their speculative opinions are: that because
there was a crash there must have been air in
the hydraulic system, even though the hydraulic system functioned for start up, run up,
taxi out, end of runway, takeoff, join-up, initial
ﬂight maneuvers including G-turns, ﬁrst attempted drone join-up, and the second attempted join-up all the way to the point of the

App. 69
“pitch back” maneuver, and at that point,
somehow, mysteriously, air foamed in the hydraulic ﬂuid causing both systems to fail, but
only until the last moment before impact,
when Decedent pulled back on the stick and
the hydraulic system functioned again and
moved the ﬂight surfaces, and Decedent went
to full throttle—all while Decedent made no
radio call and no ejection despite at least
10,000 feet of altitude at the beginning of the
event.
Def. Reply at ¶ 5. PAE’s expert believes that LaCourse
suffered a G-induced loss of consciousness after the
pitch back and that caused the crash (doc. 108-21 at
41).
Ultimately, I don’t have to resolve the disagreement about the cause of the crash because it is irrelevant to the government contractor defense that PAE
has raised on summary judgment. Thus, I can and do
assume for purposes of this order only that the crash
was caused by the dual hydraulic failure that the
plaintiff has proposed.7
7

Although I have accepted the plaintiff ’s theory of the crash
solely for purposes of this order, her theory is highly questionable
for several reasons. First, despite that F-16s have been around
since the mid-70s—and over 4,500 of them have been built—the
plaintiff’s experts have all conceded that they have never seen (or
heard of) an in-ﬂight dual hydraulic failure due to pre-ﬂight contamination or excess nitrogen in the hydraulic systems. See, e.g.,
Ewing Dep. at 163; Stutler Dep. at 109-13; Ludwig Dep. at 13233, 173; Kibbee Dep. at 161-63; see also id. at 241 (“Q: Do you
know if Northrop or General Dynamics, or anybody who operates
and maintains F-16s, have ever seen the scenario you described

App. 70
III. Discussion
A. Government Contractor Defense
The government contractor defense was ﬁrst established by the Supreme Court in the seminal decision of Boyle v. United Technologies Corp., 487 U.S. 500

today here of the foaming, the ingestion, and both systems failing,
and the degradation, leading to a crash? A: Never heard of that
before.”). Nor did the plaintiff ’s experts run any tests or conduct
(or read) any studies or analyses to see if such a thing was even
possible. See Ewing Dep. at 163-64; Ludwig Dep. at 167-68;
Kibbee Dep. at 107, 275-76.
Of course, just because something hasn’t happened before
(and no tests have been conducted to see if it could) doesn’t by
itself mean that it couldn’t happen. But even if I were to apply the
old adage that “there’s a ﬁrst time for everything,” there is no evidence that it actually happened here. See, e.g., Stutler Dep. at
114-15, 205-06 (admitting that there is “no evidence” of contamination in the form of “nitrogen in the hydraulics,” and conceding
that there isn’t “any evidence” that nitrogen in the hydraulics—if
it did exist—"affected the ﬂight controls”). To be sure, the plaintiff’s lead hydraulics expert, Gary Kibbee, was speciﬁcally asked
during his deposition if he could point to “any shred of evidence”
to suggest that there was “contamination of either hydraulic system,” and he replied: “No, I cannot.” See Kibbee Dep. at 276;
accord id. at 293-94 (“Q: So isn’t contamination in the system
purely speculative theory at this point? A: . . . Yes, it is. I have no
evidence of it . . . You’re right.”). Therefore, as plaintiff ’s own experts have acknowledged, “it’s entirely possible the aircraft was
airworthy at takeoff ” [see Ludwig Dep. at 185], and it’s possible
there was never any “degradation of the ﬂight control system” at
all. See Kibbee Dep. at 280-81.
For these and other reasons, PAE has ﬁled a separate motion
to exclude Kibbee’s testimony and opinions pursuant to Fed. R.
Evid. 702 and Daubert v. Merrell Dow Pharmaceuticals, Inc., 509
U.S. 579 (1993). I will resolve that motion by separate order.

App. 71
(1988). Because of its signiﬁcance to our case, I will discuss and quote from Boyle at length.
On April 27, 1983, David A. Boyle, a United States
Marine helicopter copilot, was killed when a helicopter
he was ﬂying in crashed off the coast of Virginia Beach,
Virginia, during a training exercise. Although Boyle
survived the impact of the crash, he drowned after he
was unable to push through the helicopter’s emergency
escape hatch. His father later brought a diversity action in federal court against the Sikorsky Division of
United Technologies Corporation (Sikorsky), a private
company that built the helicopter for the military pursuant to a contract. The suit alleged design defect.8
The jury returned a verdict for the plaintiff and
awarded him $725,000, but the Fourth Circuit reversed. The Court of Appeals ruled that Sikorsky was
immune from suit under the “military contractor
defense” (also known as the government contractor
defense). The defense was recognized in several jurisdictions, but it had been applied inconsistently. The
Supreme Court granted the plaintiff ’s petition for writ
of certiorari to resolve the inconsistency.
Writing for a 5-4 majority, Justice Scalia began
with the following:
Petitioner’s broadest contention is that, in the
absence of legislation speciﬁcally immunizing Government contractors from liability for
8

The plaintiff alleged that the escape hatch was defectively
designed insofar as it opened out instead of in, and thus was ineffective in a submerged craft due to water pressure.

App. 72
design defects, there is no basis for judicial
recognition of such a defense. We disagree. In
most ﬁelds of activity, to be sure, this Court
has refused to ﬁnd federal pre-emption of
state law in the absence of either a clear statutory prescription, or a direct conﬂict between
federal and state law. But we have held that a
few areas, involving “uniquely federal interests,” are so committed by the Constitution
and laws of the United States to federal control that state law is pre-empted and replaced, where necessary, by federal law of a
content prescribed (absent explicit statutory
directive) by the courts—so-called “federal
common law.”
487 U.S. at 504 (multiple citations omitted). The Court
found that the facts of Boyle implicated “two areas”
that involve uniquely federal interests: (1) the obligations to and rights of the United States government
under its contracts, and (2) civil liability of federal ofﬁcials for actions taken in the course of their duty. Id. at
504-05.
The Court was careful to note, however, that the
presence of a uniquely federal interest is not the end of
the analysis:
That merely establishes a necessary, not a sufﬁcient, condition for the displacement of state
law. Displacement will occur only where, as
we have variously described, a “signiﬁcant
conﬂict” exists between an identiﬁable “federal policy or interest and the operation of
state law,” or the application of state law

App. 73
would “frustrate speciﬁc objectives” of federal
legislation.
Id. at 507 (citations and footnote omitted). As for how
it is to be determined whether a “signiﬁcant conﬂict”
exists:
There is . . . a statutory provision that demonstrates the potential for, and suggests the outlines of, “signiﬁcant conﬂict” between federal
interests and state law in the context of Government procurement. In the FTCA [Federal
Tort Claims Act], Congress authorized damages to be recovered against the United States
for harm caused by the negligent or wrongful
conduct of Government employees, to the extent that a private person would be liable under the law of the place where the conduct
occurred. 28 U.S.C. § 1346(b). It excepted from
this consent to suit, however,
“[a]ny claim . . . based upon the exercise or performance or the failure to
exercise or perform a discretionary
function or duty on the part of a federal agency or an employee of the
Government, whether or not the discretion involved be abused.” 28 U.S.C.
§ 2680(a).
We think that the selection of the appropriate
design for military equipment to be used by
our Armed Forces is assuredly a discretionary
function within the meaning of this provision.
It often involves not merely engineering analysis but judgment as to the balancing of many

App. 74
technical, military, and even social considerations, including speciﬁcally the trade-off between greater safety and greater combat
effectiveness. And we are further of the view
that permitting “second-guessing” of these
judgments through state tort suits against
contractors would produce the same effect
sought to be avoided by the FTCA exemption.
The financial burden of judgments against
the contractors would ultimately be passed
through, substantially if not totally, to the
United States itself, since defense contractors
will predictably raise their prices to cover, or
to insure against, contingent liability for the
Government-ordered designs. To put the point
differently: It makes little sense to insulate
the Government against ﬁnancial liability for
the judgment that a particular feature of military equipment is necessary when the Government produces the equipment itself, but
not when it contracts for the production. In
sum, we are of the view that state law which
holds Government contractors liable for design defects in military equipment does in
some circumstances present a “signiﬁcant
conﬂict” with federal policy and must be displaced.
Id. at 511-12 (citation and footnote omitted). Ultimately, a “signiﬁcant conﬂict” will be said to exist (and
therefore the contractor will have immunity from suit)
when the following three elements have been satisﬁed:
(1) the United States approved reasonably
precise speciﬁcations; (2) the equipment conformed to those speciﬁcations; and (3) the

App. 75
supplier warned the United States about the
dangers in the use of the equipment that were
known to the supplier but not the United
States.
Id. at 512.
One author has described the rationale for Boyle
this way:
In Boyle, and in government contractor defense cases generally, although the government is the “villain,” the contractor and the
injured plaintiff are the “victims” of that villainy. Thus, when a contractor produces a
product that conforms with reasonably precise speciﬁcations provided or approved by the
government, so long as the contractor has no
knowledge of the danger or, having such
knowledge, shares it with the government, it
is the government, and not the contractor,
that is ultimately responsible for the defects
of that product. In these circumstances, the
contractor can assert with regard to the
defect, “The government made me do it.”
Furthermore, in spite of the government’s
negligence in providing improper speciﬁcations, the FTCA provides immunity from any
liability to the government. This is the result
under the discretionary function exception to
the FTCA because [per Boyd] “the selection of
the appropriate design for military equipment
to be used by our Armed Forces is assuredly a
discretionary function within the meaning of
[that] provision.” The consequence of the discretionary function exception is that if the

App. 76
injured plaintiff is to have any judicial remedy
it would have to come in an action against the
contractor.
If the plaintiff recovers from the innocent contractor due to the government’s immunity, the
contractor cannot seek indemniﬁcation from
the culpable government. This inequity contributes signiﬁcantly to the need for the government contractor defense to protect the
contractor.
David Seidelson, The Government Contractor Defense
and the Negligent Contractor: The Devil Made Me Do
It, 7 Widener J. Pub. L. 259, 262-63 (1998).
As noted above, Boyle dealt with the procurement
of an allegedly defectively designed product; it did not
address whether the government contractor defense
would apply (as in this case) to a services contract.
The Eleventh Circuit addressed that issue in Hudgens
v. Bell Helicopters/Textron, 328 F.3d 1329 (11th Cir.
2003).
The defendant in Hudgens (DynCorp) was under
contract with the government to service aircraft at
Fort Rucker Army Base in Alabama, and it overlooked
a ﬁn spar crack on a helicopter that subsequently
crashed and injured the pilot and co-pilot. The district
court granted summary judgment for the defendant
based on the government contractor defense, and the
plaintiffs appealed, arguing that the defense didn’t
apply to a military aircraft services contract.

App. 77
The Eleventh Circuit recognized that Boyle involved a procurement contract, and not a services
contract. See 328 F.3d at 1334. The panel concluded,
however, that the rationale of Boyle did not turn on the
particular type of contract at issue but, rather, it
turned on whether subjecting the contractor to liability
under state law “would create a signiﬁcant conﬂict
with a unique federal interest.” Id. As to that question,
the court concluded that the same “unique federal interest” recognized in Boyle was “manifest in the present case.” Id. And thus, the court continued, “[h]olding
a contractor liable under state law for conscientiously
maintaining military aircraft according to speciﬁed
procedures would threaten the government ofﬁcials’
discretion in precisely the same manner as holding
contractors liable for departing from design speciﬁcations.” Id. The court then went on to say:
The Supreme Court’s references to “specifications” reflects the nature of the case before it in Boyle, which involved an alleged
defect in the design of a military helicopter’s
escape hatch. In the context of the present
[services contract] case, we rearticulate the
defense’s three elements to foreclose liability
under state tort law if (1) the United States
approved reasonably precise maintenance
procedures; (2) DynCorp’s performance of
maintenance conformed to those procedures;
and (3) DynCorp warned the United States
about the dangers in reliance on the procedures that were known to DynCorp but not to
the United States.

App. 78
Id. at 1335. Applying those elements to the facts presented, the Eleventh Circuit held that DynCorp was
entitled to judgment based on the government contractor defense.
B. Analysis
I will begin by brieﬂy addressing the plaintiff ’s
threshold argument that it is not appropriate for me to
undertake the three-factor Boyle/Hudgens analysis because the government contractor defense is foreclosed
by the terms of PAE’s contract with the government.
See Pl. Resp. at I 80-81. Quoting from the contract, the
plaintiff argues that PAE has no immunity in this case
because the contract required that PAE “ ‘shall be . . .
responsible for all injuries to persons or damage to
property that occurs as a result of its fault or negligence.’ ” Id. at ¶ 24. Thus, the plaintiff asks: “How can
the government contractor defense shield a contractor
from liability when the contract itself expressly provides that the contractor is liable for its own faults and
negligence? The answer, Plaintiff suggests, is that it
cannot.” Id. at ¶ 30.
PAE responds by arguing that:
Defendant cannot by contract with the government eliminate immunity under the government contractor defense. Such immunity
exists to prevent government contractors like
Defendant from passing on the cost of risk
arising from performance of uniquely governmental activities. There are few activities
more uniquely governmental than repair and

App. 79
maintenance of military aircraft performing
military missions. Allocation of liability between Defendant and the government in the
contract has nothing to do with immunity
from liability to a third party, which the government would receive if it had maintained
the mishap aircraft and Defendant should receive for doing the exact same thing.
Def. Reply. at ¶ 3 (emphasis added). I agree with PAE.
There is no question that if the Air Force had maintained the Mishap Aircraft then it would have been
immune from this suit Immunity under the government contractor defense exists, at least in part, to save
the federal government money by allowing it to hire
contractors to do the same job without the contractors
incurring the risk of liability to third parties. As Judge
Jack Weinstein has observed:
The government contractor defense is essentially based on the concept that the government told me to do it, and knew as much or
more than I did about possible harms, so I can
stand behind the government (which cannot
be sued because of its immunity). It is designed in part to save the government money
in its procurement costs because suppliers,
less concerned with the risk of suits, can eliminate some difﬁcult insurance factors from
cost projections.
In re Agent Orange Prod. Liability Litig., 373
F. Supp. 2d 7, 91 (E.D.N.Y. 2005). In light of the purpose of the government contractor defense (to prevent
the pass-through of costs), it would make little sense

App. 80
to interpret the contract language as the plaintiff suggests. I believe PAE is correct that the quoted language
merely allocated liability between PAE and the government, but it did not speak to liability between PAE and
a third party.
Thus, I hold that the three-factor test from
Boyle/Hudgens applies to this case. The question I
must decide is whether those three elements have
been satisﬁed. If they have, then PAE is immune from
this suit and is entitled to summary judgment. If they
haven’t, then PAE is not immune and summary judgment must be denied.
As for (1)—whether the United States approved
reasonably precise maintenance procedures—the
plaintiff concedes that the ﬁrst factor has been satisﬁed. See Pl. Resp. at ¶ 82 n.12 (conceding that the AFIs
and TOs “are reasonably precise specifications that
applied to the maintenance of the mishap aircraft”);
Tr. at 10 (conceding same). As for (3)—whether PAE
warned the United States about the dangers in reliance on the procedures that were known to it but not
to the United States—this factor does not apply because (as PAE has argued, and as the plaintiff has
not disputed) there is no contention that PAE had
knowledge that it withheld from the government. See,
e.g., Brinson v. Raytheon Co., 571 F.3d 1348, 1351 (11th
Cir. 2009) (declining to address third factor where
“Brinson has not argued that RAC failed to prove the
third prong”); Harduvel v. General Dynamics Corp.,
878 F.2d 1311, 1322 (11th Cir. 1989) (holding that third
Boyle factor was satisﬁed as a matter of law where

App. 81
“[t]here is no evidence that General Dynamics had
knowledge it withheld”).
Consequently, as the plaintiff has agreed, the
question on summary judgment ultimately comes down
to whether factor (2) has been satisﬁed. See Pl. Resp.
at ¶ 82. That is, I must decide if there is a genuine disputed issue of material fact as to whether PAE’s
maintenance on the Mishap Aircraft conformed to—or
fell below—the AFIs and TOs that PAE was required
to follow. Before turning to that question, I need to
address a preliminary issue.
It is clear from reading the full testimonies of
plaintiff ’s experts—all of whom are highly experienced
and well credentialed in their respective ﬁelds—that
there are numerous things they would have done differently. For example, Kibbee believes the guideline
for the leak and bleed test should have been written
differently. See Kibbee Dep. at 255-60 (“I would write
it better than—I would write it a little bit differently. . . . I’d go longer . . . I would write it that way.”).9
9

An important point bears noting with respect to the leak
and bleed test. As previously stated, Kibbee’s theory of the case
is that both accumulators failed (either pre-ﬂight or during the
ﬂight) because they were leaking nitrogen when they were installed days prior. See Kibbee Dep. at 165-66, 288-96. He was
asked by defense counsel during deposition that if the accumulators were leaking when they were installed “wouldn’t you expect
that to show up when they were pre-charged, and then on a leak
and bleed check for 24 hours?” Id. at 166. Kibbee answered as
follows: “No. . . . Because the way the TO is written, it doesn’t say
to check these things 24 hours later. It just says do it real fast,
and then pressure goes back to 1600, and then you’re done, so
[there is] nothing in a TO that would pick this up.” Id. (emphasis

App. 82
Stutler believes that “a common sense mechanic”
should have gone above and beyond what the AFIs or
TOs required. See Stutler Dep. at 286; see also id. at
276-77 (conceding that no TO precluded PAE mechanics from asking LaCourse to repeat the initially failed
PO tests before takeoff, but opining that sometimes
mechanics should “troubleshoot a little bit further beyond what the TOs say”). And several of the experts
testiﬁed about their personal opinions and about what
they would have done if they had been at Tyndall that
day. See, e.g., Stutler Dep. at 150-52 (testifying that “if
it was me, I would [have] put a red X in the orders” and
grounded the aircraft based upon its maintenance history, but answering “I can’t” when asked to point to
where in the AFIs or TOs that was required); id. at
281-82 (“Personally, yes, I would have [grounded the
Mishap Aircraft]. . . . [but] I’m only speaking for myself. . . . I can only speak on my behalf. Yes, I would
have.”); Ludwig Dep. at 76 (“If I saw repeat gripes in
probably excess of three, I would not be wanting that
airplane to ﬂy. I’d be very much concerned.”); see also
Ewing Dep. at 176 (testifying “I would have put that
plane down on the hangar deck of my carrier” until the

added); accord id. at 258 (testifying that the guideline as written
“would not pick up . . . this accumulator problem”). Whether the
TO should (or could) have been written differently so that the mechanics would have caught the alleged nitrogen leak is, arguably,
a drafting problem with the TO. But it says nothing about
whether PAE complied with the TO, which is the only thing that
matters here.

App. 83
“root cause” of the hydraulic problem was “fully discovered”).10
While the foregoing expert testimony (and other
similar testimony from their depositions) may bear on
the question of negligence, it is irrelevant to the issue
I must decide. The question isn’t whether the AFIs and
TOs were properly written, whether a reasonable mechanic should have gone beyond them, or whether and
to what extent the plaintiff ’s expert witnesses would
have done things differently. Stated simply, it’s irrelevant whether the Mishap Aircraft could (or even
should) have been grounded and sent for “deeper”
maintenance. The only question I must decide is
whether there is a genuine disputed issue of material
fact as to whether PAE’s maintenance conformed to the
AFIs and TOs as written.
In its motion for summary judgment, PAE argued
that its maintenance on the Mishap Aircraft conformed to the AFIs and TOs it was required to follow,
and it cited deposition testimony from several employees, the AIB maintenance member, and the SIB
10

Ewing further testiﬁed that the “biggest things” indicating
a hydraulic problem was the fact that both accumulators were
replaced, and he said that PAE should have sought “technical
assistance from Lockheed.” See Ewing Dep. at 143, 174. But he
answered “I don’t know . . . I can’t answer that” when asked to
identify an AFI and/or TO that required PAE to call Lockheed for
technical assistance. See id. at 144; accord Stutler Dep. at 107
(“Q: . . . Do you know of any particular FI section or JG section or,
for that matter, any Air Force written TO, regulation, or guide
that says there is a limit on the number of times a hydraulic accumulator can be changed? A: I’ll say no.”).

App. 84
investigator to that effect. See Def. Mot. at ¶¶ 22-27
(citing T. Davis Dep. at 117; Reeves Dep. at 106; Bogaert Dep. at 100; Chiaravalle Dep. at 26; Fallin Dep.
at 13, 15, 19, 35-36, 231).11 Relying on this testimony,
PAE further argued “[t]here is no evidence that Defendant ever deviated from the reasonably precise
speciﬁcations set forth in the Contract, TOs, or other
applicable U.S. Air Force regulations or standards, and,
in fact, Defendant submits [that the foregoing evidence] is uncontroverted that Defendant complied
with the Contract, TOs and applicable USAF requirements.” See id. at ¶ 28; see also id. at ¶ 49 (stating
“none of Plaintiff ’s experts have identiﬁed any speciﬁc
TO or other regulation that Defendant failed to follow”). PAE then continued in its motion:
Assuming and setting aside the highly speculative opinions of Plaintiff ’s experts as to
whether or not a hydraulic malfunction even
occurred, which led to or caused this crash,
and even if we assume that such a failure did
11

Captain Chiaravalle and Senior Master Sergeant Fallin,
in particular, testiﬁed that their respective AIB and SIB investigations made factual determinations that the Mishap Aircraft
had been maintained in compliance with Air Force guidelines and
standards. See Chiaravalle Dep. at 26 (the AIB factually determined “that the aircraft was being maintained per Air Force TOs,
AFIs, and requirements”); Fallin Dep. at 13, 15, 19, 35-36, 231
(the SIB factually determined that PAE was utilizing Air Force
requirements; that PAE was not using any non-Air Force requirements, TOs, or standards in maintaining the aircraft; that there
was no procedure that was missed or a part that was not installed;
that PAE used Air Force pre-ﬂight checklists; and that there
wasn’t “anything out of the norm of what you would expect from
an active duty Air Force maintenance entity”).

App. 85
occur in ﬂight, there is no procedure, guideline, or U.S. Air Force regulation that would
require additional in depth troubleshooting,
additional “grounding” as it has been referred to by Plaintiff ’s experts, or additional
return to “depot level” maintenance. Plaintiff
cannot cite a speciﬁc TO, guideline, or U.S. Air
Force requirement that Defendant allegedly
breached.
Id. at ¶ 50 (emphasis added).
To create a genuine disputed issue of material fact
in light of PAE’s evidence, the plaintiff was required in
her response in opposition to come forward with evidence that PAE did violate an Air Force guideline or
standard. However, she did not cite any evidence in her
response that is inconsistent with PAE’s evidence. See,
e.g., Pl. Resp. at ¶ 84 (arguing that PAE’s “repeated,
systematic and chronic failures” in maintenance were
“in direct violation of reasonably precise and applicable Air Force procedures,” but citing no actual evidence
to support that argument).12
12

The plaintiff didn’t produce any evidence of her own on this
point, but she did appear to challenge the weight that should be
afforded to PAE’s evidence. For example, as noted, Captain Chiaravalle testiﬁed that the AIB made a factual determination that
the Mishap Aircraft had been maintained pursuant to all relevant
“Air Force TOs, AFIs, and requirements,” but the plaintiff notes
that Captain Chiaravalle answered “I don’t know” forty six (46)
times in response to other questions during her deposition. See
Pl. Resp. at ¶¶ 90-92. Whether and to what extent Captain Chiaravalle was being an “evasive” and “typical” Air Force “bureaucrat” when responding to other questions, however, does not
contradict her deposition testimony—or similar testimony from

App. 86
Although the plaintiff didn’t cite any evidence in
her response in opposition to summary judgment on
this point, she did claim that PAE had breached two
Air Force guidelines: AFI 21-101 and TO 1-1-300. See
Pl. Resp. at ¶¶ 34-45, 84; accord Tr. at 10-11 (wherein
plaintiff ’s counsel argued “[t]here are two very speciﬁc
instructions that are in dispute in the Motion for Summary Judgment, and that is Technical Order 1-1-300
and Air Force Instruction 21-101”); see also Plaintiff ’s
Motion to Strike Air Force Opinions, Undisclosed Expert Opinions, and Other Inadmissible Evidence from
Defendant’s Motion for Final Summary Judgment,
ﬁled February 21, 2019, at ¶ 12 (doc. 120) (“Plaintiff respectfully suggests that the Court’s summary judgment inquiry should focus on the reasonably precise
speciﬁcations that Defendant did not comply with: Air
Force Instruction (AFI) 21-101 and Technical Order
(TO) 1-1-300”).
In relevant part, AFI 21-101 sets out when an aircraft may be impounded:
7.1. Aircraft and Equipment Impoundment. Aircraft or equipment is impounded
when intensiﬁed management is warranted
due to system or component malfunction or
failure of a serious or chronic nature. . . . Impounding aircraft and equipment enables
investigative efforts to systemically proceed
other individuals, including PAE employees—that PAE’s maintenance conformed to all relevant Air Force guidelines and standards. See also Olson Aff. at ¶ 8 (testifying that PAE provided
maintenance “conforming” to the government requirements).

App. 87
with minimal risk relative to intentional/unintentional actions and subsequent loss of evidence.
TO 1-1-30 covers “check ﬂights” after an aircraft
has undergone maintenance work, and it provides in
pertinent part that:
4.1. . . . Check ﬂights are normally conducted following maintenance work and prior
to release of the aircraft for operational use.
For the purpose of this instruction, to ensure
aircraft is airworthy, primary aircraft systems
are those affecting engines; ﬂight controls;
landing gear; and those systems affecting the
basic Instrument Flight Rules (IFR) capability of the aircraft (i.e., pitot static; compasses;
attitude references, air data computers, etc.).
A fair reading of AFI 21-101 is that it authorizes
aircraft impoundment, but it’s discretionary and not
required, and the same can be said of the check ﬂight
described in TO 1-1-30. Nevertheless, the plaintiff has
argued that both guidelines were violated. But that is
all she has presented: attorney argument. And as earlier noted, that is not enough to avoid summary judgment. Nowhere in her response in opposition does she
cite actual evidence to support her argument that PAE
violated AFI 21-101 or TO 1-1-300. She has not, for
example, cited her experts on this issue. In fact, full
review of their testimony indicates the experts were
largely unfamiliar with the AFIs and TOs.
Stutler testiﬁed that he had not read or reviewed
“any portions” AFI 21-101, and thus it did not play “any

App. 88
part” in his opinions in the case. See Stutler Dep. at 7778; see also id. at 106 (testifying that there were no TOs
that he had any “particular interest in”). Ludwig answered “I’m not going to” when asked if he was planning to “render any opinions as to whether or not PAE
was . . . following Air Force technical orders[.]” See
Ludwig Dep. at 166. And Kibbee testiﬁed that he was
“not familiar” with many of the TOs—he was provided
some of them but not “the full set”—which led to the
following exchange: “Q: Well, let me ask this way: In
the TOs you’ve been given, can you point me to any TO
that you believe my clients did not follow? A: No, I can’t
do that.” See Kibbee Dep. at 87, 119; accord Tr. at 71
(where defense counsel noted that when the plaintiff ’s
experts were asked about the TOs at their deposition
“expert after expert said, ‘I can’t tell you exactly what
they breached. I can’t tell you speciﬁcally. I can’t tell
you which TO.’ Several of the key experts of the Navy,
well respected pilots said, ‘I haven’t even reviewed
them.’ ”).13

13

The plaintiff’s fourth expert, Kent Ewing, didn’t directly
and explicitly say during deposition that PAE violated AFI 21-101
and/or TO 1-1-300, but he did testify that in his opinion the Mishap Aircraft should have been impounded and only released after
a functional check flight. See Ewing Dep. at 141-44. As to the
former, he testiﬁed that he had read “words to the effect” in “121101” [sic] that an aircraft should be impounded if there are “continuous repairs that are made that are not satisfactory.” See id.
at 144. But he did not know (and offered no opinion as to) what
the Air Force deﬁnes as “continuous repairs that are not satisfactory.” See id. As to the latter, he didn’t cite TO 1-1-300 at all, and
in fact didn’t know what would be included in an Air Force functional check ﬂight under that provision:

App. 89
It is also worth noting that after PAE filed its
motion for summary judgment on the government
contractor defense (in which it argued that “none of
Plaintiff ’s experts have identiﬁed any speciﬁc TO or
other regulation that Defendant failed to follow,” see
Def. Mot. at ¶ 49), the plaintiff did not submit any postmotion/post-deposition afﬁdavits or other evidence
from her experts that mentioned AFI 21-101 and/or TO
1-1-3 00—even though my March 4th Order and Notice

Q: If this aircraft had had a functional check ﬂight,
functional check pilot had taken it out, started it, just
like Mr. LaCourse did, ﬂown it around the pattern,
brought it back and landed it, would it have been appropriate to release?
A: Only if it had been conducted as a functional check
ﬂight in accordance with the TO or whatever the Air
Force calls it for a functional check ﬂight— . . .
Q: What would a functional check ﬂight post-maintenance include?
A: I don’t know. I know what it would be in the Navy.
I know what it would be in my experience. It would include all the maneuvers that the airplane is supposed
to be designed for. So it’s a pretty extensive document in
the Navy, post-maintenance check ﬂight.
Id. at 141-42 (emphasis added). Because this testimony is not
“signiﬁcantly probative” and leaves, at most, a “metaphysical
doubt” as to whether PAE violated AFI 21-101 and/or TO 1-1-300,
it is not sufﬁcient to defeat summary judgment. See, e.g., Transcontinental Gas Pipe Line Co. LLC, 910 F.3d at 1154. Indeed, it
is telling that the plaintiff didn’t even cite or rely on this vague
testimony in her response in opposition to summary judgment or
suggest that it created a genuine disputed issue of material fact.

App. 90
explicitly granted her leave to ﬁle additional evidence.14
After close and careful review, I conclude that the
plaintiff has not produced evidence sufﬁcient to create
a genuine disputed issue of material fact as to whether
PAE’s maintenance of the Mishap Aircraft conformed
to the Air Force’s reasonably precise standards and
guidelines. The uncontradicted evidence is that it
did. Therefore, PAE has met all three prongs of the

14

The plaintiff also failed to cite any evidence at the summary judgment hearing, which didn’t go unnoticed by defense
counsel. See, e.g., Tr. at 37 (“[T]he key, we believe, is the fact that
Plaintiff cannot cite to anyone who has testiﬁed or a report from
an expert . . . that says [PAE violated AFI 21-101 and TO 1-1300]. So really we’re on a Motion for Summary Judgment where
it’s the dearth of evidence from Plaintiff ’s side, or lack of it, that
we believe supports the summary judgment”); id. at 39 (“And
without that expert testimony that ties the links in the chain, the
Plaintiff does not have sufﬁcient factual basis on which to go forward with their case. We believe, in a nutshell, that that is really
what our motion is directed at, Your Honor.”); id. at 63-64 (“What
the Plaintiff has to bring forward in this case is proof by—and
we’ve had a lot of us lawyers talking about things, but there’s no
testimony of any witness that says, ‘I read Air Force 21-101, I read
1-1-300, and this maintenance squadron, or contractor in the
place of a squadron, was the one required to perform a functional
check ﬂight, and they failed to do so.”); id. at 65 (pointing out that
attorneys “don’t get to testify” and noting that “there’s no witness”
who testiﬁed that PAE violated AFI 21-101 and/or TO 1-1-300,
and without such evidence “we don’t have a case that can proceed”
because “[t]he time for advancing Rule 26 disclosures or amending them is gone. The depositions have been taken. The witnesses
can’t now contradict or expand their testimony to include new theories. We are here with what we have.”).

App. 91
Boyle/Hudgens test and is immune from this suit based
on the government contractor defense.
IV. Conclusion
For the above reasons, PAE’s motion for summary
judgment (doc. 96) must be, and is, hereby GRANTED.
The Clerk is directed to enter judgment in favor of
PAE, along with taxable costs, and close this case.
DONE and ORDERED this 29th day of August
2019.
/s/ Roger Vinson
ROGER VINSON
Senior United States District Judge

